<html>
<title> - ESEA REAUTHORIZATION: RURAL HIGH SCHOOL REFORM</title>
<body><pre>[Senate Hearing 111-1139]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1139
 
                         ESEA REAUTHORIZATION: 
                        RURAL HIGH SCHOOL REFORM 

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

           EXAMINING ESEA REAUTHORIZATION, FOCUSING ON RURAL 
                           HIGH SCHOOL REFORM

                               __________

                      JULY 23, 2010 (GILLETTE, WY)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-728 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut           MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland              JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
JACK REED, Rhode Island                    JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont               JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania         ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina               LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                       TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                      PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado
CARTE P. GOODWIN, West Virginia
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)




                            C O N T E N T S

                               __________

                               STATEMENTS

                         FRIDAY, JULY 23, 2010

                                                                   Page
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     1
Abernethy, Rollin, Ph.D., Professor and Associate Provost, 
  University of Wyoming, Laramie, WY.............................     5
    Prepared statement...........................................     7
Rose, James, Ed.D., Executive Director, Wyoming Community College 
  Commission, Cheyenne, WY.......................................    11
    Prepared statement...........................................    12
Mitchell, Kevin, Superintendent, Park County School District No. 
  1, Powell, WY..................................................    16
    Prepared statement...........................................    18
Velle, Verlyn, Ed.D., Coordinator of Career and Technical 
  Education, Campbell County School District, Gillette, Wyoming..    20
    Prepared statement...........................................    22
Jensen, Brandon, Principal, Cody High School, Cody, WY...........    26
    Prepared statement...........................................    29

                                 (iii)

  


                 FIELD HEARING: ESEA REAUTHORIZATION: 
                        RURAL HIGH SCHOOL REFORM

                              ----------                              


                         FRIDAY, JULY 23, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                      Gillette, WY.

    The committee met, pursuant to notice, at 2:29 p.m. in the 
Education Center, Gillette College Technical, 3251 South 4J 
Road, Gillette, WY, Hon. Michael Enzi, presiding.
    Present: Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. I checked and there are contestants at the 
National High School Rodeo Championship from every one of the 
States for which we have Senators on the HELP Committee.
    The purpose of the hearing, is for me to hear from more 
witnesses from rural areas. I'm the Ranking Member on the 
Senate HELP Committee, that means that if we were in the 
majority I'd be the chairman. The way that it's set up when we 
have a hearing in Washington, the chairman gets to pick all of 
the witnesses on a panel except one, and then both sides show 
up to beat up on the witnesses.
    So, this is a much better venue, I got to pick all of the 
witnesses.
    [Laughter.]
    I thank all of the witnesses for being willing to 
participate in today's hearing. And consequently, they're all 
rural witnesses who will help us build a vast volume of 
testimony that will be used as we fix No Child Left Behind, 
which is, of course, to reauthorize the Elementary and 
Secondary Education Act.
    I want to thank the college for letting us use this 
building. I want to thank all of the people who put this 
hearing together. I have several people here from my staff. I 
have Lindsay Hunsicker, who works on education every day, as 
does Beth Buehlmann. They both work on my education team. We 
have a few more people that are on that team, and they 
negotiate on the Federal education statutes, which range from 
ESEA to the Workforce Investment Act. We have been trying to 
get WIA through for a long time. If we could pass that we would 
train 900,000 people a year to higher skilled jobs in their 
area, but we haven't had any luck on getting that through, yet. 
We're working on that virtually every day.
    The hearing today will be a roundtable style. Consequently, 
we're all up here instead of me up here and everybody else 
facing me instead of the audience. The difference with the 
roundtable--I instituted roundtables when I became the chairman 
and Senator Kennedy came to like it well enough to use as 
well--is that instead of holding a panel with just 1 person for 
the minority and 5 for the majority, we usually agreed on, 
maybe, 15 witnesses together. Each of them would be people that 
actually do something, just as we have today. Each witness 
would tell what they did and then they'd have a conversation 
about how their idea might work with somebody else's idea. And 
consequently, we came up with a lot of things that were 
helpful.
    I remember Senator Kennedy coming to me and saying, ``You 
know, those roundtables are really fascinating, it's nice to 
learn something before we draft the bill.''
    [Laughter.]
    I have a few formal comments here that I'll read for the 
record. After I introduce our witnesses, they'll each provide 
about 5 minutes of oral testimony, and once they've finished, 
the six of us will engage in a discussion on this important 
issue rather than having a question and answer exchange between 
me and the witnesses.
    Before I turn to the expert panel, I do want to make some 
other opening comments to set the stage for the hearing. The 
Senate Health, Education, Labor, and Pensions, or HELP 
Committee--``we're from the government, we're here to help 
you''--started work on the reauthorization of the Elementary 
and Secondary Education Act earlier this year with a series of 
10 hearings on topics ranging from standards and assessments to 
the well-being of children. We've also sought input from the 
education community and received over 1,500 comments across the 
country. Today we're here to learn more about high school 
reform efforts in Wyoming and how the Elementary and Secondary 
Education Act can be amended to support these efforts.
    The Federal Government's role in this discussion should be 
to encourage and support States and school districts so that 
more students graduate from high school on time with the 
knowledge and skills they need to attend college and enter the 
workforce without the need for remediation.
    However, the present situation is discouraging. Every day 
in the United States, 7,000 students drop out of school. If the 
high school students who have dropped out of the class of 2009 
had graduated instead, the Nation's economy would have 
benefited from an additional $335 billion in income that they 
would have earned additionally over their lifetimes. It's an 
incredible statistic. Because we couldn't reach those 7,000 
students, it will cost us and them $335 billion in income, so 
we all lose.
    Now our outlook in Wyoming is better, there's still work to 
be done. Wyoming is fortunate that over 80 percent of the 
students graduate from high school. However, that still means 
that 1,200 students who start high school don't make it to 
graduation day. To ensure both the future success of this great 
State and a higher quality of life for those students, we have 
to do better. We simply can not afford to lose those students. 
We must deal with the situation head on. We can not allow 
students to waste their senior year and graduate unprepared for 
any post-secondary education in a workforce that's focused on 
skills and knowledge.
    As we look to the reauthorization of the Elementary and 
Secondary Education Act, we need to strengthen programs that 
provide relevance, context, and rigor for students in both 
middle and high school. I believe it's time to bring attention 
to the secondary part of the Elementary and Secondary Education 
Act. The Federal Government needs to provide some resources to 
school districts for these efforts and ensure that the reforms 
used are data-driven and have a solid evidence base of success.
    We'll hear from our experts today that these efforts are 
difficult, because there is no silver bullet when it comes to 
education reform. However, the Federal Government can help 
school districts by providing additional flexibility with the 
funds we provide to allow for the best possible solution for 
each struggling school.
    In addition, it's important to emphasize the fact that a 
high school diploma does not guarantee that a student has 
learned the basics. Nearly half of all college students are 
required to take remedial courses after graduating from high 
school before they can take college level course work. Even in 
Wyoming, 15 percent of the Hathaway Scholarship recipients 
enroll in remedial courses once in college.
    The witnesses before us today demonstrate that this work is 
hard but it can be done. Without a plan for reforming our 
secondary schools, the outcome for many of our students will 
not change, which is not acceptable. If we are to remain 
competitive in a global economy, we can not afford to lose 
people because they don't have the education and skills they 
need to be successful. Strong partnerships and alignment among 
K-12 schools, institutions of higher education, business, and 
government will help us meet this need.
    I'm pleased to welcome the witnesses and thank them for 
being here today. I look forward to a healthy exchange of ideas 
that I can take back to Washington. All of it is being recorded 
and will become a part of the record, as will their entire 
written testimony.
    I want to encourage each of you in attendance to send me 
any comments or ideas that you have, that you come up with from 
this discussion, or that you come up with later. We want to 
make the ESEA law a better law for children, for teachers, for 
administrators, and for parents. You can e-mail your comments 
to me by visiting my Web site, which is www.enzi.senate.gov. 
I'll mention that address again later. I'll then share your 
comments with members of the HELP Committee. The unique 
challenges and needs of rural schools and students must be a 
part of any conversation we have around reauthorizing the 
Elementary and Secondary Education Act.
    I also want to mention that Jim McBride, the Wyoming 
Superintendent of Public Instruction is here with us today.
    [Applause.]
    He's been a tremendous contributor to us as we've been 
going through this process. Copies of one of the extensive 
letters that he's written to me regarding NCLB are over on the 
table for anybody that would like to have one.
    We're gathering information any way that we can, so 
remember that you can send me your suggestions, ideas, and 
complaints.
    Before we hear the testimony, I will introduce each of the 
witnesses, and each of them will have 5 minutes to summarize 
the testimony that they've submitted. Their whole testimony 
becomes part of the record and will be shared with all of the 
other Senators and staffs, and will be included in the record 
of the official hearing.
    Each of these witnesses has extensive experience in the 
field of education, so I'll provide very abbreviated 
introductions this afternoon so that we can get to the 
testimony and conversation about issues.
    I notice that we have a few legislators with us today, too. 
Could you stand, Greg, John?
    [Applause.]
    These are a couple of the Wyoming State legislators, and 
they're the ones that do the really heavy lifting on education, 
because States are mostly responsible for education. I thank 
you for all of your efforts.
    So, in the way of introductions, we have Dr. Rollin 
Abernethy, he's a professor of plant biology and an associate 
provost at the University of Wyoming. Most recently he played a 
prominent role in the formation of the Wyoming P-16 Education 
Council, and serves as president of the council. Dr. Abernethy 
obtained his Bachelor's and Master's degrees in Agronomy Plant 
Physiology from Kansas State University, and a Ph.D. degree in 
Agronomy Plant Physiology from the University of Arizona.
    We have Dr. Jim Rose, who is the Executive Director of the 
Wyoming Community College Commission. He is a Wyoming native, 
born in Casper, and Dr. Rose grew up in Goshen County. He 
graduated from the University of Wyoming with a degree in 
architectural engineering, and then obtained a Master's degree 
in Architecture from the University of Virginia. Dr. Rose 
served in a faculty position in civil and architectural 
engineering at the University of Wyoming for 18 years. He 
received a Doctorate in Education from the University of 
Wyoming, and in 1998, was elected to serve in the 55th Wyoming 
Legislature as a member of the House of Representatives.
    Kevin Mitchell has served as the Superintendent of Schools 
in Park County School District No. 1 for 3 years. While Mr. 
Mitchell didn't begin his college course work until the age of 
30, he has since earned four degrees and is currently pursuing 
a Doctorate. He's taught science and physical education, 
coached basketball, football, and track, served 3 years as a 
middle school principal, and is entering his 10th year as a 
superintendent. Mr. Mitchell was honored as the Wyoming 
Superintendent of the Year in 2009.
    Lyn Velle, an old friend, who's been teaching me about 
these issues for a long time, has been the Coordinator of 
Career and Technical Education at Campbell County School 
District in Gillette, WY for the past 19 years. She's 
responsible for guiding the career academies in energy, 
transportation technology, and hospitality and tourism, and is 
the Wyoming State leader of the Project Lead the Way Program. 
Lyn has taught at the junior high, the senior high, and the 
college level in family and consumer education, and taught at 
an alternative high school in Rock Springs, WY. Dr. Velle 
received her Doctorate in Vocational Education Administration 
and School Law from the University of Wyoming.
    Brandon Jensen was hired in March 2010 as the new principal 
of the Cody High School for the 2010-11 school year. He has 
served as the Assistant Principal of Cody High School for the 
last 4 years. In 2010, he was named the Wyoming Assistant 
Principal of the year. Prior to coming to Cody High School, Mr. 
Jensen served as an assistant principal at Walla Walla High 
School in Walla Walla, WA. Before becoming a school 
administrator, Jensen taught Spanish at the high school level 
for 11 years. He received a Bachelor's degree in Education at 
Eastern Washington University, a Master's degree in Curriculum 
Development from Heritage University, and his administrative 
endorsement from Portland State University.
    I thank you all for being willing to do this. I need to 
mention, too, that for all of our hearings, and I've been doing 
hearings now for 14 years with almost all of them in 
Washington, we have this requirement about providing testimony 
in advance of the hearing. This is the first panel that I can 
remember where we have all the testimony in advance.
    [Laughter.]
    [Applause.]
    It shouldn't be a first after that many years, but it is 
and it was a pleasure to read all of this, great information. 
So, if you will summarize your testimony for us, we'd 
appreciate it.
    We'll start with Dr. Abernethy.

 STATEMENT OF ROLLIN ABERNETHY, Ph.D., PROFESSOR AND ASSOCIATE 
          PROVOST, UNIVERSITY OF WYOMING, LARAMIE, WY

    Mr. Abernethy. Thank you, Senator Enzi, and colleagues on 
the panel.
    Senator Enzi, colleagues on our panel, and the members of 
the audience, it is indeed an honor for me to be here today to 
be able to share with you all several initiatives of the 
University of Wyoming, the P-16 Education Council, or both. 
Several of these are shared initiatives. We believe these 
initiatives will advance a rigorous and effective and a more 
seamless educational system that supports high school reform.
    I will go through these initiatives rather briefly, there 
are six of them. The first initiative that I would like to 
address is that of a rigorous and well-defined high school 
curriculum. Compelling evidence exists that successful 
completion of a defined and a rigorous high school course of 
study enhances post-secondary and career readiness. The content 
knowledge provided by college readiness curricula and career 
readiness curricula are increasingly very similar. The Wyoming 
Hathaway Scholarship, with its eligibility tied to the success 
curriculum, provides Wyoming students and their families a 
strong incentive to complete an academically challenging high 
school curriculum.
    Both the University and the P-16 Council have strongly 
supported this success curriculum. With support at the State 
Legislature, with funding to the Wyoming Department of 
Education, the P-16 Council has fostered initiation of a long-
term longitudinal study, and assessment of the impacts of both 
the scholarship, and of the curriculum, on Wyoming's school 
preparation and career readiness workforce enhancements. We 
believe any changes to this curriculum need to be based on 
data, similar to that that would be acquired, or will be 
acquired, in this study.
    The second initiative involves faculty articulation across 
grades 9 through 16. The enhanced transition of students from 
one level of education to the next is facilitated by 
conversations among educators across grade levels. Initially in 
biology, now in writing and reading and in mathematics, we are 
now undertaking these conversations. This program was conceived 
initially, and led by, the Wyoming School University 
Partnership under the leadership of director Dr. Audrey 
Kleinsasser, and now involves a number of university faculty, 
community college faculty and high school faculty.
    The concept is simple, it brings together faculty from each 
grade level, in a specific area, subject matter, to discuss 
student learning goals at each grade level, using student work 
as the point of the discussions. The faculty participating have 
a strong desire to identify shared goals for student 
achievement. This is a true collaboration of peers, it's a key 
part, they view each other as equals from the beginning. As a 
result, the participants understand the challenges each face, 
they understand the aspirations each have for student learning, 
and by communicating and collaborating, make great strides in 
advancing those outcomes.
    In summary, we think these articulation discussions are 
probably one of the most effective strategies for enhancing 
student transitions between grade levels, that we're aware of. 
We believe it will enhance high school completion and post-
secondary and career readiness.
    The Wyoming P-16 Education Council, a third initiative, has 
developed some college and high school course comparison 
charts. There are actually five of these, there are several up 
here on the table for people to pick up. So, I won't talk about 
those further.
    The fourth initiative is the Common Core Standards, adopted 
only a month ago by the Wyoming State Board of Education. These 
standards are providing common outcomes for English language, 
arts, and mathematics. We believe these standards have immense 
capacity to--when integrated with Wyoming's State standards--
bring forward a much more rigorous and more effective secondary 
and post-secondary system. The University has already supported 
and will be joining, if the Wyoming State Department of 
Education pursues it, a balanced assessment consortium that is 
designed to bring together educators at all levels and develop 
an assessment system for this common core standard that will 
improve, further, those activities.
    Finally, if high school reform efforts are to achieve their 
potential, the local community must be engaged and must support 
an academically focused and effective school system. It's 
essential that we, as a country, move beyond the blame game. 
The community, parents, business owners, employees, government 
workers, civic leaders, and senior citizens, they all can--and 
all should--play a role in elevating the importance of an 
academically strong and effective school system. Teachers have 
a role, but it can not only be the teachers' role.
    The Community School Movement, I'm just now starting to 
learn about, but I believe it deserves further study as we 
consider this as an approach to foster community engagement 
with our local schools. Rural schools should have an advantage 
in that sense. On the one hand, in that the smaller scale 
simply allows it to happen more readily. However, it's also a 
disadvantage, possibly, in that rural community residents may 
have less diversity and experience of perspective.
    On that premise, our P-16 Council is currently engaged in a 
project that will be our first experiment in engaging the 
community with educators. Dr. Rose, I think, might talk about 
that following my comments.
    So with that, I thank you for this chance for a brief 
summary, to share some of the thoughts and initiatives of our 
P-16 Council at the University of Wyoming. Thank you.
    [The prepared statement of Mr. Abernethy follows:]
             Prepared Statement of Rollin Abernethy, Ph.D.
                                summary
    Dr. Rollin Abernethy, Associate Provost for Academic Affairs, 
University of Wyoming, Laramie, and president of the Wyoming P-16 
Education Council, a non-profit education organization created to 
enhance the transition of students through each level of the 
educational system. Enhancing transitions between stages requires 
reinvigorated collaboration that leads to new and better academic and 
student supports, thereby increasing the likelihood of greater post-
secondary participation and improved workforce preparation.
    Six initiatives of either the University of Wyoming or the P-16 
Education Council, or both will be presented. These initiatives will 
advance a rigorous, effective, and more seamless educational system 
that supports high school reform. The initiatives include:

    A defined and rigorous high school curriculum, the Hathaway 
Scholarship Success Curriculum. Compelling evidence that successful 
completion of a rigorous high school course of study enhances post-
secondary and career readiness is compelling. The Wyoming Hathaway 
Scholarship Program and Success Curriculum, strongly supported by the 
university and Council, provide Wyoming students a strong incentive for 
academically challenging coursework.
    Articulations by disciplinary faculty members across grades 9 
through 16. Enhanced transition from one level of education to the next 
is being facilitated by conversations among educators in biology, 
writing and reading and mathematics from high schools, community 
colleges and the university. Discussion and shared consensus on student 
learning goals and outcomes should enhance transition from one level of 
education to another.
    The Wyoming P-16 Education Council's high school and college course 
comparison charts. Charts that compare and contrast features of high 
school and college coursework in mathematics, science, social studies, 
world language and writing will be provided and briefly discussed.
    Common Core State Standards initiative and comprehensive standards 
assessment consortia. Adoption and integration of the Common Core 
standards and Wyoming State standards along with creation of a new 
generation of comprehensive standards assessment with a multi-state 
consortium offers promising potential for improved assessment of 
student and teacher effectiveness. UW and the Council are participants.
    Features of teacher preparation at the University of Wyoming. We 
support inclusion of substantial content coursework for secondary 
education majors with concurrent degrees in the content area, 
increasing opportunity for teacher education students to work in public 
school classrooms with mentor teachers, and alternative certification 
programs that provide substantial instructional interaction in school 
classrooms. These are key elements of most effective teacher 
preparation programs.
    Community and schools, engaging the community to support more 
effective schools. For high school reform efforts to achieve their 
potential, the local community must be engaged and support an 
academically focused and effective school system. The ``community 
school'' movement deserves further study as one approach to foster this 
engagement.
                                 ______
                                 
    Good afternoon Senator Enzi and members of the committee. I am 
Rollin Abernethy, a professor of plant biology and currently Associate 
Provost for Academic Affairs at the University of Wyoming. I also serve 
as president of the Wyoming 
P-16 Education Council (www.wp-16.org), a non-profit educational 
organization in its third year. The overarching mission of the P-16 
Council is to enhance the transition of students from each level of 
education to the next and thereby increase post-secondary participation 
and workforce preparation. The Council members represent all four 
educational systems in Wyoming, primary through post-secondary and 
include business sector and legislative representatives. It is an honor 
to come before you today and share some of the efforts in which the 
University of Wyoming and the P-16 Council are engaged to improve 
student preparation for both post-secondary learning and work in our 
rural State. With one 4-year university, 7 community colleges and 48 
school districts in Wyoming, we believe we have near unequalled 
opportunity to improve post-secondary participation and completion.
    Today I will emphasize six initiatives that we believe will advance 
a more rigorous, effective and seamless educational system and support 
high school reform. These initiatives include:

    1. A defined and rigorous high school curriculum, the Hathaway 
Scholarship Success Curriculum;
    2. Articulations by disciplinary faculty members across grades 9 
through 16;
    3. The Wyoming P-16 Education Council's high school and college 
course comparison charts;
    4. Common Core State Standards initiative and comprehensive 
standards assessment consortia;
    5. Teacher preparation at the University of Wyoming; and
    6. Engaging the community to support more effective schools.
                    rigorous high school curriculum
    The evidence is extensive: completion of a rigorous course of study 
in high school enhances post-secondary participation, completion and 
career readiness. The traditional gulf between college-readiness 
curricula and career-readiness curricula is disappearing. With 
development and implementation of Wyoming's Hathaway Scholarship 
program, and scholarship eligibility linked to completion of the 
Hathaway Scholarship Success Curriculum, policymakers in Wyoming 
established a powerful incentive for students and families to pursue 
more challenging high school coursework (www.k12.wy.us/eqa/Hathaway/
hathway_rubric.pdf). Likewise, our schools are challenged to provide 
this opportunity for their students. Development and implementation of 
the Hathaway Success Curriculum was an early stimulus for formation of 
the P-16 Council. The Council was initiated by the university in close 
collaboration with the Wyoming Department of Education and Wyoming 
Workforce Council. Both the university and the P-16 Council have 
contributed and strongly supported the Success Curriculum that will be 
fully implemented during the upcoming academic year. With support of 
the State legislature, the Council fostered initiation of a long-term 
longitudinal study including the assessment of outcomes. The necessity 
of sound data for informing decisions and formulating policy is one of 
the P-16 Council's key tenets.
            faculty articulation across grades 9 through 16
    The Wyoming School-University Partnership under the leadership of 
director Dr. Audrey Kleinsasser, along with several university faculty, 
community college and school faculty, formulated a program several 
years ago that continues to expand and mature. The program concept 
initially brought together faculty teaching biology in high school, 
community college and university classrooms for a discussion of student 
learning goals at each grade level using student work from the 
participating faculty classrooms as the focal point. The faculty 
participants engaged in this endeavor with a strong desire to identify 
shared goals for student achievement as they progress through 
successive grade levels. As a result, participants better understand 
and respect the challenges each face in their classrooms. Further, the 
faculty participants have collectively developed strategies and 
instructional exercises that help overcome some of the identified 
challenges.
    Conversation among peers at their respective institutions has led 
to similar efforts with faculty in writing and reading, and in 
mathematics over the last 2 years. Growing out of this articulation 
initiative, a small work group representing French, German, and Spanish 
faculty are developing recommendations for a placement exam and broadly 
accepted student learning expectations for the first year of post-
secondary language study. We acknowledge the need to expand the 
participants to include more secondary schools and more post-secondary 
faculty.
      understanding expectations for college and career readiness
    The growth of knowledge and the complexity of our global society 
make the importance of post-secondary experience more critical than 
ever before. High school completion alone is widely recognized as a 
partial, but generally insufficient step toward a rewarding career, and 
as an informed and effective participant in our democracy. Awareness of 
the differences between high school and college expectations is a well-
documented component creating successful post-secondary experiences, 
particularly for those students who have limited access to college 
experience mentoring. This is particularly critical in Wyoming, where 
approximately one-fourth of residents age 25 and older have bachelor's 
degrees. Acknowledging the need for this understanding, the P-16 
Council initiated development of charts comparing and contrasting the 
differences in instructional features for high school and college-level 
courses. Charts for mathematics, science, social studies, world 
languages and writing courses have been produced jointly by secondary 
and post-secondary faculty, with support from the Wyoming State 
Scholars Initiative and Wyoming School-University Partnership.
    Differences in class sessions, out of class preparation, textbooks 
and grading are among those outlined for each subject. These charts 
have been provided schools across the State and are now accessible on 
the P-16 Council Web site (www.wp-16.org/Projects.asp#PastProjects).
      nga common core standards and balanced assessment consortium
    The Wyoming State Board of Education (SBE) approved adoption of the 
Common Core State Standards (Common Core) for English language-arts and 
mathematics in June 2010. The common core standards are the product of 
a State-led initiative coordinated by the National Governors 
Association (NGA) and Council of Chief State School Officers following 
extensive input from content experts, teachers, school administrators, 
and parents from 48 States, two territories and the District of 
Columbia. These common education standards for K-12 build on the 
individual States standards by providing a consistent set of goals and 
expectations across the States. The adopted mathematics and language-
arts Common Core standards are founded on rigorous content and 
application of knowledge requiring higher order skills. The Common Core 
does not tell teachers how to meet the standards as that is best left 
to local districts. The Wyoming Department of Education coordinated the 
State's input during development and the subsequent review of the 
Common Core prior to adoption in June.
    The University of Wyoming and Wyoming P-16 Education Council 
strongly support the Common Core, and provided a recommendation in 
support of adoption to the Wyoming SBE. Integration of this research-
based Common Core with its focus on college and career readiness and 
the existing Wyoming K-12 standards offers additional potential for 
increased post-secondary participation and completion.
    If the full potential of the Common Core is to be realized, a new 
generation assessment system is needed to support ongoing improvements 
in instruction and consider a broad range of student learning outcomes. 
The Comprehensive Assessment Systems Grant Program, a component of the 
Race to the Top Fund Assessment Program, recognizes this need and 
offers States an opportunity to participate in consortia to formulate 
such an assessment. The University and the P-16 Council are on record 
in support of the Wyoming Department of Education's application to join 
the current 31 State SMARTER Balanced Assessment Consortium (SBAC). The 
University of Wyoming and Council were initially attracted to the key 
elements and principals for a comprehensive assessment system proposed 
in the MOU for the States joining the SBAC. These key elements and 
principles are outlined in the Executive Summary on the SBAC Web site 
(www.k12.wa.us/SMARTER/pubdocs/Exec_Smarter.pdf). The SBAC assessment 
system calls for strategic use of a variety of item types and 
performance events to measure the full range of the Common Core and to 
ensure accurate assessment of all students. The importance of valid 
assessment of student performance in meeting content standards is 
obvious. However, the complexity of designing a valid assessment that 
provides incentives for students, parents, teachers and schools to 
improve and excel is not. We are eager for an opportunity to 
participate in the development of a new generation comprehensive 
assessment as proposed by the SBAC.
                          teacher preparation
    Teacher preparation and evaluation are topics too often receiving 
negative attention today. While the importance of well-qualified and 
effective teachers committed to students and learning is inarguable, 
proposals addressing teacher accountability more often emphasize 
punitive actions rather than supportive and developmental actions. 
Unfortunately punitive measures are occasionally necessary, but are a 
last resort. The teacher preparation initiatives I outline are not 
intended to discount the responsibility of instructional faculty at 
every level, from pre-school through graduate school. It is imperative 
that they effectively impart new knowledge to their students, but it is 
not solely the responsibility of the school and the faculty. The role 
of community is addressed in a subsequent section.
    Without delving too deeply into teacher education, I want to 
highlight three facets of our NCATE accredited College of Education 
program at the University of Wyoming. Since 2005, every major in 
secondary education must also complete a concurrent major in a specific 
discipline. For example, secondary mathematics education majors must 
complete 47 credit hours in mathematics coursework. The student must 
receive a grade of C or better in the content coursework. Majors in 
Art, Agricultural Education, English, Mathematics, Modern Languages, 
Science (Biology, Chemistry, Earth Science and Physics) and Social 
Studies Education must fulfill this expectation. These concurrent 
majors provide substantial depth in content for students seeking 
certification in that area.
    A second key element for quality teacher education is an increasing 
opportunity to work with students in actual public school classrooms to 
develop the skills necessary to be a highly effective member of the 
profession. In conjunction with required college coursework, teacher-
education program students at UW spend significant time with mentor 
teachers in their classrooms. In addition, most of our education 
college faculty have P-12 teaching experience on their resume providing 
increased credibility in our work with mentor teachers across the 
State. The increasing exposure to the public school classroom begins 
during the second year and culminates with a two semester sequence in 
the senior year. Each graduate completes 16 weeks of full-time field 
experience in a partner school during the second semester senior year.
    Lastly, alternative teacher certification pathways are a topic of 
interest nationally. We have some concern about alternative 
certification programs that do not provide substantial instructional 
interaction with students in school classrooms. With that being said, 
the University recognizes this need offering a program for students who 
have already completed a bachelors degree that leads to teacher 
certification through Wyoming's Professional Teaching Standards Board. 
The Teacher Certification Program for Post-Baccalaureate Students is 
not a degree program, but a path to teacher certification. The actual 
certification courses can be completed over one summer and the 
following academic year, including the student teaching experience we 
value. An associated, but separate option with some additional 
coursework, can lead to the master's degree.
         engaging the community in support of effective schools
    If high school reform is to be realized, it is essential that we as 
a country move beyond the blame game. The community--parents, business 
owners and employees, government workers, civic leaders, and seniors--
can and should all play a role in elevating the importance of an 
academically strong, effective school system. David Kirp, in the June 
14, 2010 issue of The Nation outlines a ``community school'' philosophy 
using as a model a school in upper Manhattan Island of New York. In his 
example, parents are involved as learners and teachers, with schools 
offering medical care and social services in addition to academics. 
Community groups and businesses are partners with the school and not 
only provide new funding, but also connect students to the world beyond 
their school and neighborhood. The traditional school day and year is 
substantially expanded with programs after school, on weekends and 
during the summer. While all the elements of this particular model may 
not be readily transferable, the concept overall is worthy of more 
widespread consideration.
    One advantage of rural schools may be greater feasibility in 
engaging the community in activities that enhance student achievement 
in preparation for college and the workforce. While the smaller scale 
should offer an advantage in terms of involving the community, it also 
presents a disadvantage in that rural community residents may have less 
diversity of experience and perspective. On that premise, that P-16 
Education Council has debated various approaches to engage individual 
communities in consensus building dialogue on specific elements of the 
academic and social skills needed for effective functioning in a global 
economy. Understanding and implementing best practices in providing 
college coursework credits for appropriately prepared high school 
students throughout the State is one example of a project the Council 
is undertaking with support from the Wyoming Community College 
Commission. The challenges in reaching broad consensus on a topic such 
as this are substantial. Most importantly, the process creates 
opportunity for participants to listen and learn about different 
perspectives, values and practices. This is a powerful first step in 
creating a shared vision for a stronger, more effective educational 
system.
    I thank you for this opportunity to share some thoughts and will be 
pleased to answer any questions.

    Senator Enzi. Thank you very much.
    Dr. Rose.

STATEMENT OF JAMES O. ROSE, Ed.D., EXECUTIVE DIRECTOR, WYOMING 
           COMMUNITY COLLEGE COMMISSION, CHEYENNE, WY

    Mr. Rose. Thank you, Senator Enzi. I, too, appreciate the 
opportunity to be heard from. As you know, being in Wyoming, 
we're oftentimes considered to sort of be an intellectual 
wasteland, and I believe that we do actually have something to 
contribute, so it's indeed an honor to be able to contribute to 
that.
    I would like to simply couch my recommendation or my 
observations and a sort of redefinition of the three R's. 
Reading, writing, and arithmetic we all are familiar with--I 
think we need now, as an educational system, to look at 
relevance, remediation, and resources.
    Relevance, I believe it is--and as you have pointed out in 
your opening remarks--going to become more and more important 
as the merging of career and post-secondary education take 
place, so that preparation at the high school level is 
developed with goals that recognize that no student is going to 
be adequately prepared with merely a high school education. I 
think it also needs to be recognized that of the $772 billion 
that's spent on education--postsecondary education annually, 
nearly two-thirds of that number were spent not in traditional 
institutions of higher education, but by public and private 
entities, primarily employers. This is an enterprise that in 
preparing high school students, I think we have to reform. 
They're not all either going to some sort of formal career 
technical education, nor are they necessarily going to higher 
education. They very well may be going into the workforce, but 
we need to recognize relevance as a primary piece of that.
    I would call your attention--and I hope you've had a chance 
to see this--this is a document published by the Wyoming 
Department of Education in collaboration with NPR Associates in 
2007. It points out, I think, a number of recommendations, two 
that I would simply call your attention to.
    One is the need for relevance through the use of employment 
of career pathways--identifying for students what their career 
aspirations are, and finding them a curriculum that is both 
relevant to those aspirations, has a structure that will help 
them advance to a point that they can become productive in 
whatever career they choose.
    The other piece I would put forth in terms of relevance is 
that the actual relevance is not necessarily going to be 
achieved once students identify their career aspirations. If 
they're assisted in that by high school counselors, we are 
dealing with a difficult challenge because even in Wyoming, we 
have hundreds of students with those. When that relevance is 
going to be achieved, I believe, is in the classroom. The 
teacher corps needs to have assistance, professional 
development opportunities in order to adjust their pedagogy and 
make their curriculum relevant, so that students have 
motivation and engagement in that learning process.
    Remediation is one we've already spoken of. The Hathaway 
Merit Scholarship that we have in this State, still results in 
one student in seven being required to take a remedial course 
at the college level before they actually can take credit-
bearing, college, transcriptable courses. We think there's a 
problem in terms of the enrollment of high school curriculum, 
and as Dr. Abernethy referenced, the common core standards, I 
believe, are going to help us add rigor to high school work so 
that there is a correlation between what's taught in high 
school and what's expected in college. It also applies to 
career and technical education in all facets of education.
    I would just say that, for too long, those of us in post-
secondary education have really let curriculum--the whole post-
secondary education has been the culprits; it's their fault. I 
believe that that hasn't taken us very far in terms of 
improving this situation. What I believe we need to do is, as 
Rollin has mentioned, we really have to open up communications 
so that we're speaking about the same issues.
    Finally, what I would suggest is an attention to resources. 
This might be the place where you think I'm going to give you 
the schpeel about more Federal dollars.
    [Laughter.]
    That's not my pitch. What I believe we need is a proper and 
directed use of the resources we already have, and the place we 
can best do that is to use data to our advantage. It's the data 
resources we need at least as much as we need fiscal resources.
    We are--as again, Rollin has suggested--in the process in 
this State with the systems that can help us understand what 
mechanisms are in a high school, secondary level and transform 
them into a post-secondary or career training level through 
longitudinal data, data to tell us how individual students 
perform. I know you've seen references in the Obama 
administration's proposal of a blueprint for reform to the use 
of growth models in secondary education, and all of those are 
components.
    I would merely suggest that this is not simply a problem 
that will be solved by throwing money at it. We just have to do 
a better job of analyzing what we know now and formalizing it 
into usable information that will guide all of our efforts.
    Thank you.
    [The prepared statement of Mr. Rose follows:]
            Prepared Statement of James O. (Jim) Rose, Ed.D.
    I sincerely appreciate this opportunity to address you this 
afternoon and provide testimony as you explore the vital and vexing 
issues of improving our public education system. In the context of 
today's hearing, I am particularly thankful to be able to provide a 
perspective from Wyoming and attempt to articulate some of the 
challenges and opportunities we face as a rural State.
                              introduction
    I should say at the outset, there is a limit to my experience with 
secondary education: my only direct involvement was as a student in 
Goshen County Schools and graduate of Lingle High School and then as a 
school board member in Fremont County. Both of those experiences 
occurred more years ago than I care to admit. All my remaining 
educational experience stems from nearly 30 years as a professor and 
administrator in post-secondary education and more recently, as the 
administrator of the State system of community colleges. While I have 
attempted to link what I am about to present to the secondary education 
system, my familiarity with the challenges faced by today's high 
schools is dated and derived from indirect involvement.
    I believe that some of the important issues in this discussion can 
be framed by a new definition for the ``Three R's''. While defining 
competencies in readin', (w)ritin' and `rithmetic' holds a central 
position in modern discussions of education reform, I would suggest 
three alternative R's to consider if we are to progress to substantive, 
meaningful improvement:

    <bullet> RELEVANCE
    <bullet> REMEDIATION
    <bullet> RESOURCES

    Let me begin with RELEVANCE.
                               relevance
    First, a qualifier regarding the scope of how post-secondary 
education may be related to secondary reform. A study recently 
published by the Georgetown University Center on Education and the 
Workforce \1\ indicates that of the $772 billion spent annually on 
post-secondary education, 65 percent of that total is outside the 
formal post-secondary system. Essentially, nearly two-thirds of post-
secondary education is provided by employers, formally or informally, 
as well as through industry apprenticeships, certifications and public 
job training. Only slightly more than a third is provided by 
traditional institutions of higher education, be they public or 
private.
    Given this landscape, what constitutes realistic and effective 
preparation for post-secondary education by high schools is subject to 
considerable interpretation depending on the specific route a student 
may follow. However, I believe it's safe to assert some relevant skills 
that high school graduates should possess to ensure success 
irrespective of the post-secondary education path chosen. And to my 
point, it is equally vital how those skills are perceived and mastered 
through relevant coursework connected to the interests and aspirations 
of students.
    In 2007, MPR Associates in collaboration with a number of 
education-related entities produced ``New Directions for High School 
Career and Technical Education in Wyoming: A Strategic Plan.'' \2\ 
Among the many recommendations this document contains, are two that I 
believe merit consideration in this discussion. First, the plan 
recommends that students be guided in exploring and developing their 
own interests for future careers using the career pathways identified 
by the U.S. Department of Education and adopted by the Wyoming 
Department of Education. Providing students with opportunities to 
relate high school courses to their individual interests and career 
aspirations enhances student engagement with their studies regardless 
of whether they intend to pursue a post-secondary degree or begin 
preparation to enter the workforce. As a corollary to this action, it 
is recommended that the separation between career and academic courses 
be deemphasized, since virtually all current data suggest that college 
and careers require essentially the same preparation at the secondary 
level. This leads to the second recommendation.
    In order to enhance relevance and improve student engagement, as 
disciplinary divisions and career/academic barriers are dissolved, 
there must be investment in assisting teachers in the integrative 
process through professional development. The role of invigorating 
student engagement cannot practically be left just to career 
counselors, since by any measure their opportunity to provide career 
guidance to students is circumscribed by sheer numbers. Even in 
Wyoming, ratios of several hundred students per counselor preclude such 
practice. The teaching faculty in many cases provides the only real 
opportunity for guided career exploration. Effective, engaged learning 
will require minor refinements for some faculty and major shifts in 
classroom practice for others. Adjusting pedagogies to facilitate this 
integration will most certainly require commitment of faculty and 
administrators at the school level.
    As you are aware, the National Governor's Association and the 
Council of Chief State School Officers have recently published their 
recommendation for common core standards and a number of States, 
including Wyoming, have adopted them.\3\ A rigorous curriculum is 
certainly one necessary component in the agenda to improve public 
education in this country, but I believe a singular focus on standards 
as a panacea without acknowledging the need for curricular integration 
will allow a watershed opportunity in education to be squandered. More 
about this in a subsequent section.
What is Wyoming Doing to Address This Issue?
    One example of an effort in Wyoming to improve student engagement 
and opportunity is work commissioned by the Wyoming Legislature earlier 
this year. The Wyoming Post-Secondary Education Options Program (W.S.  
21-20-201) provides an opportunity for high school students to enroll 
in college courses offered during the normal school day on high school 
campuses (concurrent enrollment) or outside the school day at other 
sites or online (dual enrollment). The work being conducted this summer 
and fall is intended to provide a comprehensive review of this program 
and gain input from a full spectrum of education stakeholders. The 
outcome will be enhanced equity and accessibility for students and 
uniform accountability for the State.
    This expansion of course offerings affords students in rural high 
schools especially, the opportunity to be academically challenged and 
to explore career interests in spite of the inherent limitations that 
geography imposes on the breadth of coursework available to small 
districts.
                              remediation
    According to data published last month by the National Center for 
Public Policy and Higher Education and the Southern Regional Education 
Board \4\ nearly 60 percent of first-year college students who are 
fully eligible to attend college must take at least one remedial 
course. Estimates of the Bill and Melinda Gate's Foundation's Strong 
American Schools estimates that this remedial education costs students 
and States up to $2.3 billion annually.\5\ In addition to the fiscal 
toll, the likelihood that a student will complete a bachelor's degree 
if required to complete even just one remedial reading course is only 
17 percent; for a math course, it is 27 percent.\6\
    In Wyoming, the picture is not quite so bleak, but there is still 
reason for concern. In data collected in 2008/2009 for the Hathaway 
Scholarship Program, nearly 15 percent of scholarship recipients were 
required to take at least one remedial class. Since the Hathaway 
Program is a merit scholarship program, the fact that more than one 
scholarship student in seven must take at least one remedial class 
suggests there is still need for improvement.\7\
    For too long, those of us in post-secondary education have looked 
critically upon our secondary peers and intimated that the preparation 
problem is solely in the purview of K-12 education. We have resisted 
any suggestion that we are at all culpable for this disconnect between 
what high school students receive and higher education demands. 
Fortunately, there is growing recognition that secondary and post-
secondary education must work in tandem if lasting, substantive 
improvement is to be achieved.
What is Wyoming Doing to Address This Issue?
    The Wyoming Community College Commission, the Wyoming Department of 
Education, school districts and the University of Wyoming are currently 
considering joining with over 30 other States in a consortium designed 
to develop a common assessment instrument. This test will be used to 
evaluate student progress and mastery of the common core standards 
referenced above.
    More specifically, the SMARTER Balanced Assessment Consortium \8\ 
seeks to develop a common assessment system, used in grades 3-8 and 11. 
The exam given in the junior year will allow for addressing any 
deficiencies during the remaining year of high school. For their part, 
post-secondary institutions who participate in the consortium agree to 
accept the results of the assessment to determine placement in college 
coursework. No longer will separate placement exams be used by member 
colleges and universities as part of the matriculation process.
    Thirty-one States have signed on and agreed to adopt a single, 
summative assessment exam that will allow schools to evaluate students 
using the same test that will be employed by post-secondary 
institutions.
                               resources
    In spite of what you may be thinking--here comes the pitch for more 
dollars--my choice of resources as the third ``R'' has less to do with 
the amount of funding and more to do with how resources are employed to 
achieve the most benefit for our entire education system.
    By almost any measure, Wyoming has been blessed recently with 
extraordinary fiscal resources to support public education at all 
levels. For example:

    <bullet> Our K-12 system is among the highest funded systems per 
capita in the country, with nearly $1.5 billion appropriated for the 
current biennium.\9\
    <bullet> Public support of our post-secondary system, (UW and the 
seven community colleges) in terms of $/FTE is the highest in the 
Nation. Total revenue per FTE in 2009 was $17,460, while the U.S. 
average was $10,998.\10\
    <bullet> When represented as a percentage of public higher 
education revenue, Wyoming has the lowest net tuition of all the 
States.\10\

    I would submit that ours is not a challenge of resource quantity, 
but rather of how the abundance that we have can best be invested to 
create opportunities leading to fulfilling, productive lives. Perhaps 
the most important component in evaluating the efficacy of how 
resources are applied in pursuit of these goals is comprehensive, 
current data.
    Innovative new approaches to addressing present and current 
challenges in education will only be effective if it is possible to 
establish objectives and metrics by which success is to be measured and 
achievement established. Data are the sin qua non to this process. 
Without a comprehensive, longitudinal data capacity, we will continue 
to resort to speculation and inference rather that accurately and 
equitably assessing our performance. There are, of course, concerns of 
individual privacy which must and can be addressed, but no longer can 
we afford to merely employ anecdotal evidence as a proxy for assessing 
performance.
What is Wyoming Doing to Address This Issue?
    The Wyoming Community College Commission Statewide Strategic Plan 
was completed early this year, presented to policymakers for 
consideration, and approved as the guiding document for the future of 
Wyoming's community college system.\11\ A product of 3 years of study, 
first by a governor-appointed commission and then a legislative task 
force, the plan sets out ambitious goals for continuing to strengthen 
linkages between the K-12 system and the seven community colleges.
    The plan also mandates continued collaboration among all education 
sectors as an essential for continued progress. Partnerships with 
workforce services and other human service agencies continue to provide 
new avenues to jointly address the education and training needs of 
Wyoming citizens. For example, the community colleges and the 
Department of Workforce Services have recently cooperated in deploying 
the Career Readiness Certificate, providing a nationally recognized 
credential to assist employers in the hiring process and giving job 
seekers a means to quantify their proficiency in applied mathematics, 
reading for information and locating information.
                               conclusion
    Relevance, remediation and resources--three components that I 
believe merit examination for the role they can play in reforming our 
secondary education system. Relevance, achieved through integration of 
career and academic pathways into the learning process and professional 
development opportunities to enhance educational practice. A reduced 
need for remediation through better alignment of secondary and post-
secondary curriculum and the employment of common assessment 
instruments. And effective application of resources through more 
comprehensive and effective use of data to improve our understanding 
and guide our decisions. I believe that by attending to these three 
areas, we can achieve higher levels of success for all students and 
ensure a brighter future for all of Wyoming and the Nation.
    Thank you for this opportunity.
                               References
    1. Help Wanted: Projections of Jobs and Education Requirements 
through 2018; Georgetown University Center on Education and the 
Workforce, June 2010.
    2. Common Core State Standards Initiative; Council of Chief State 
School Officers and the National Governor's Association, June 2010. 
[http://corestandards.org]
    3. New Directions for High School Career and Technical Education in 
Wyoming: A Strategic Plan; Hoachlander, Gary; Klein, Steven and 
Studier, Carol; MPR Associates, May 2007.
    4. Beyond the Rhetoric: Improving College Readiness Through 
Coherent State Policy; The National Center for Public Policy and Higher 
Education and the Southern Regional Education Board, June 2010.
    5. Getting Past Go: Rebuilding the Remedial Education Bridge to 
College Success; Education Commission of the States, May 2010.
    6. Answers in the Toolbox: Academic Intensity, Attendance Patterns, 
and Bachelor's Degree Attainment; Office of Education Research and 
Improvement, U.S. Department of Education, 1999.
    7. Wyoming Community College Commission, study conducted for 
Legislative Services Office, 2010.
    8. The SMARTER Balanced Assessment Consortium; State of Washington, 
Office of the Superintendent of Public Instruction, June 2010. [http://
www.k12.wa.us/SMARTER]
    9. State of Wyoming: 2011-2012 Biennial Budget: Department of 
Education.
    10. State Higher Education Finance: FY 2009; State Higher Education 
Executive Officers, 2010.
    11. Wyoming Community College Commission Statewide Strategic Plan: 
Planning for the Future of Wyoming's Community Colleges; MPR Associates 
and the Wyoming Community College Commission, January 2010.

    Senator Enzi. Thank you.
    Mr. Mitchell.

STATEMENT OF KEVIN MITCHELL, SUPERINTENDENT, PARK COUNTY SCHOOL 
                   DISTRICT NO. 1, POWELL, WY

    Mr. Mitchell. Good afternoon. Senator Enzi, thank you for 
inviting me to testify at this hearing today. It is an honor to 
represent our school district and the rural school districts in 
Wyoming and across the Nation.
    Our school district is comprised of four elementary 
schools, one middle school, one comprehensive high school and 
one small alternative high school. We serve about 1,600 
students in 1,458 square miles. Powell, a community of 5,000, 
has a tradition of educational excellence, but we also 
understand the need to make sure we continually strive to 
improve our efforts to provide the quality of education our 
students deserve.
    In following with this tradition, recently our Board of 
Trustees has adopted a strategic plan to guide the School 
District in continuous school improvement. I have provided a 
copy of our strategic plan. I'll speak briefly about just one 
of the goals--we have three goals--but our main academic goal 
is that we will increase student achievement by ensuring that 
all students will be prepared for Algebra I by the end of 8th 
grade; ensure that, at the end of 3rd grade and all subsequent 
years thereafter, students will be reading on grade level; and 
we'll attempt to attain 100 percent graduation rate.
    As you can see, the student achievement goals are very 
bold; however we believe we can reach our goals with the 
support of our stakeholders. We can't do it alone, it's not 
necessarily our teachers' responsibility.
    High School Reform, we really don't call it high school 
reform, but that was the title of some of the topics as we were 
preparing for this, we call it Continuous School Improvement. 
Some of the efforts that we have attempted during my short 
tenure at Powell and certainly prior to my tenure was working 
effectively with our high school staff and our community to 
provide opportunities for our students. We offer a strong 
curriculum of core academic classes, supplemented by the 
traditional high school offerings.
    We also partner with Northwest College to offer dual and 
concurrent enrollment classes to our high school students and 
we have recently started having articulation agreements and 
discussions with faculty at Northwest College, which is located 
in our community. It's a small step, but it will prove 
advantageous for our students.
    We have initiated several strategies in the recent years to 
decrease our drop-out rate. One of those is, we have developed 
academies at each grade level: 9th grade, 10th grade, 11th 
grade, and 12th grade. The academy concept, briefly, is that 
breaking our high school down into smaller groups with similar 
teachers teaching similar students and then, not only that, 
small groups of students meet regularly with one teacher, which 
is their advisor, talking about their academic progress and 
their needs and wants as a student, and also rescheduling--
working 2 years, our high school schedule allows those teachers 
to periodically have common planning time so that they can meet 
to talk about student data as it relates to student 
achievement.
    We also developed a project-based learning environment, 
which not only covers core academic standards, but also allows 
students to work together as a team for a common goal, which 
embedded in that are career skills. Also it's mandatory that 
each of those projects are integrated with the use of modern 
technology.
    We offer a strong school-to-work program for students that, 
in their junior and senior years, have the ability to take some 
time out of school and work at one of the local businesses. We 
also have a job shadow component related to that, and recently, 
in the last 2 years, we have implemented the Reconnecting Youth 
program which is showing very good results in its first 2 
years.
    A variety of at-risk programs have been added to Powell 
High School. In particular, we have after-school programming 
every day, provided by tutors--high school students, that are 
tutors that we pay to tutor our at-risk students with an 
academic advisor--we're seeing that. Last year we started the 
Lunch Intervention Program, commonly known as the LIP program. 
This is a program during lunch period where, if a student is 
missing an assignment, they have to go to the library with 
their lunch and stay there until they get that assignment 
turned in. Mixed results. It's 3 years we've been doing it at 
the middle school, and our D/F list has decreased dramatically 
with the Lunch Intervention Program there.
    We offer summer school at all of our schools, most 
recently, just this summer, we adopted a project-based summer 
school at the high school. That project was focused on Roundup 
Ready Beets. All the students had to do some type of project on 
Roundup Ready Beets. I'm not sure if you're aware of that, but 
it's a big deal in Powell, we can grow a lot of beets in our 
country.
    [Laughter.]
    The Federal Government's involvement there sometimes slows 
that down.
    [Laughter.]
    Each one of the students had to present to the public--and 
it was open to the community. It was quite an event, and not 
only the students are still enthused about what they've learned 
about Roundup Ready Beets, the audience themselves, quite a few 
farmers showed up to know what the students knew about what 
they were growing on their farms, and were quite impressed with 
the knowledge that the students had gained.
    Our small alternative high school is called the Shoshone 
Learning Center, it's all online. We require all of our classes 
through BYU, and Powell High School students also attend that 
center. They do credit recovery there in the summer, that was 
our traditional summer school until this year, but they bounce 
back and forth depending on some of the class offerings that 
they can't get or a class scheduling conflict. If the student 
wants to take band for 4 years, it's hard for them to get all 
of that in, so they might have to go to the Shoshone Learning 
Center for a Latin class or something that they want for an 
elective.
    Thank you for your time.
    [The prepared statement of Mr. Mitchell follows:]
                  Prepared Statement of Kevin Mitchell
                                summary
    Good afternoon Chairman Harkin, Senator Enzi and members of the 
committee. My name is Kevin Mitchell and I am the superintendent of 
schools in Park County School District #1 (PCSD#1) in Powell, WY. Thank 
you for inviting me to testify at this hearing today. It is an honor to 
represent our school district and the rural school districts in Wyoming 
and across the Nation.
    PCSD#1 has developed a strategic planning effort to provide 
continuous school improvement for each school that is tied to the 
district student achievement goals. A copy of the plan is included with 
my written testimony.
    Powell High School has implemented or is in the process of 
implementing programs to improve student achievement. Grade level 
academies, after-school programs, common planning time, project-based 
summer school, school-to-work program, and dual and concurrent 
enrollment classes with the local junior college are some of the 
programs being offered to support our efforts to increase student 
achievement.
    The reauthorization of ESEA should include a strong emphasis on 
professional development for high school teachers and principals. A 
focus on a strong academic core of reading, writing and mathematics 
should be provided to each high school student. All other curriculum 
offerings should be decided by the local Board of Trustees. A system of 
support should be implemented rather than a system of compliance. 
Increase the funds for IDEA and Title I to meet the needs of our 
students with disabilities and those in poverty. The Department of 
Education could assist districts and other agencies to develop a 
collaborative model such as ``Ready by 21'' to meet the needs of our 
youth.
                                 ______
                                 
                              introduction
    Good afternoon Chairman Harkin, Senator Enzi and members of the 
committee. My name is Kevin Mitchell and I am the superintendent of 
schools in Park County School District #1 (PCSD#1) in Powell, WY. Thank 
you for inviting me to testify at this hearing today. It is an honor to 
represent our school district and the rural school districts in Wyoming 
and across the Nation.
    Our school district is comprised of four elementary schools, one 
middle school, one comprehensive high school and one small alternative 
high school. We serve about 1,600 students in an area of 1,458 square 
miles. Powell has a tradition of educational excellence, but we also 
understand the need to make sure we continually strive to improve our 
efforts to provide the quality of education our students deserve. The 
Board of Trustees has adopted a strategic planning process that guides 
the efforts for continuous school improvement. A copy of the strategic 
plan placemat is attached with this report. The goals of the strategic 
plan are:

    Goal 1: Increase Student Achievement

    a. Ensure that all students will be prepared for Algebra I by the 
end of 8th grade.
    b. Ensure that, at the end of 3d grade and all subsequent years 
thereafter, students will be reading on grade level.
    c. Attain 100 percent graduation rate.

    Goal 2: Ensure Effective and Efficient Operations

    a. Develop a systematic approach to identify and evaluate the 
operational processes of the district.

    Goal 3: Strategic Communications With Stakeholders

    a. Implement a district-wide communication plan.

    As you can see, the student achievement goals are very bold; 
however we believe we can reach our goals with the support of our 
stakeholders. A detailed plan on the actions needed to achieve the 
goals has been developed to guide our work.
                           high school reform
    Powell High School (PHS) offers a strong curriculum of core 
academic classes, supplemented with art, music, health and physical 
education and career and technical education class offerings. There are 
many other elective classes offered also that include AP classes. We 
have a partnership with Northwest College to offer dual and concurrent 
enrollment classes to our high school students.
    Powell High School has adopted or is in the process of initiating 
strategies to ensure that our graduates are prepared for college or a 
career. Grade level academies have been established to provide 
opportunities for small groups of teachers to develop relationships 
with students. Many high school dropouts didn't have a personal 
connection with anyone in the school. Each teacher is assigned a small 
group of students to meet with to discuss their academic progress and 
assist the students with any problems they might have. The academies 
also allow the teachers a common planning time to discuss student 
achievement data to monitor student achievement.
    PHS is also in the process of developing a project-based approach 
as an instructional strategy. This strategy develops skills that 
students need to work together for a common goal. Standards in more 
than one curricular area may be addressed along with career skills in 
one assigned project guided by at least two teachers. The integration 
of technology is mandatory in all of the project-based classes.
    Powell High School also offers a strong school to work program. 
This program allows students time to work in local businesses. This 
program is coupled with a job shadowing program. These programs offer 
students an opportunity to develop job-related skills and to also 
determine if they want to pursue a specific career. PHS implemented the 
Reconnecting Youth program 2 years ago to address identified at-risk 
students that have poor attendance and are not on track to graduate. 
The initial results of this program are positive.
    PHS also has a variety of programs to offer at-risk students. An 
after-school program, partially staffed by student tutors has been very 
successful in assisting students in need of academic assistance. A 
Lunch Intervention Program (LIP) was established this year for students 
that are failing a class. The students are assigned to eat lunch in the 
media center where they complete missing or incomplete assignments with 
the assistance of a tutor. A project-based summer school was added this 
year. Students failing reading and/or math were invited to summer 
school where they completed a project of local interest, ``Roundup 
Ready Beets.'' The students researched the controversy over ``Roundup 
Ready Beets.'' They had to meet the standards in math, reading and 
writing in the project. They presented their projects to the public at 
the conclusion of summer school. PHS received very positive remarks 
from the students and the public that attended the presentations.
    The Shoshone Learning Center is our alternative high school. The 
center serves as an alternative setting for students that have dropped 
out of high school or do not meet the norms of PHS. The center delivers 
the curriculum via distance education. The center is staffed by a 
teacher, a para-educator, a part-time principal and an administrative 
assistant. The center is also used by PHS students that want to take a 
class that is not offered at the high school or to complete a credit 
recovery class. The Shoshone Learning Center had a graduating class of 
13 students that may not have graduated without this opportunity.
    Most of these programs mentioned above are either fully or 
partially funded using Federal funds we receive from consolidated 
grants. Title I, neglected and delinquent, special education and 
general funds are allocated to provide these programs for our students.
            opportunities during the reauthorization of esea
    The reauthorization of ESEA is very important, especially to rural 
school districts and particularly to rural high school reform. 
Secondary schools can be resistant to embrace change. The Federal 
Government could assist local school districts in high school reform by 
providing support to teachers and principals in the following areas:

    1. Professional development in identifying the needs of high school 
students and how to make sure all students have a personal connection 
to the school.
    2. All students must complete a rigorous core curriculum of 
reading, writing and mathematics. All students must be prepared for 
college in these three areas. One assessment could be developed to 
measure a student's skills and knowledge in these areas. Even the so 
called ``vocational professions'' such as plumbers and electricians 
need these skills to complete the training necessary for their chosen 
profession. This curriculum should certainly be supplemented by the 
sciences, history, music, art, drama, foreign language, health and 
physical education, technology and the list goes on. However, all 
students in a rural area must be equipped with these college ready 
skills. This practice would eliminate the need for remediation classes 
at the college level. Students and their parents are not making the 
appropriate class choices to insure they are college ready. We must 
make these choices for them. Small rural high schools cannot offer a 
large offering of curricular choices to students, but they can all 
offer this rigorous core curriculum. You never know when a person may 
choose to attend college after years of not needing or choosing to 
attend college. ESEA should support the efforts of this core curriculum 
such as the recently released common core standards and leave the rest 
of the curriculum choices to the local Board of Trustees.
    3. IDEA and title I funds are critical for school districts. These 
grants should remain formula-driven and not be turned into competitive 
grants where small rural districts are at a disadvantage to compete for 
these funds. At-risk students live in all corners of the Nation and 
funding for children of poverty or special needs should not be 
determined by how well a grant application was written. Increasing 
funding for IDEA and adding title I funds specifically for high schools 
would assist rural districts in meeting the needs of our students in 
poverty and our low performing schools.
    4. The Department of Education could offer more regionally located 
professional development opportunities in rural areas. This would 
provide better customer service for our students. Attending very 
expensive conferences in large cities shouldn't be the only offerings 
to see how model schools improve student achievement. Referring someone 
to a link on a Web site is not customer service. The development of 
personal relationships with the Department of Education, the State 
Department of Education and the local districts would be most helpful 
and could be accomplished by face-to-face interactions.
    5. The development of effective high school principals must be a 
priority. I believe the high school principal has the most difficult 
job in education today. They need quality professional development and 
support from the local district and from the State and Federal levels. 
Professional development offered regionally by the Department of 
Education or in partnership with a local university is much-needed. 
Providing real examples of education reform that increases student 
achievement that includes a plan for implementation, followed by on-
site coaching during the implementation phase would be very effective 
in assisting principals with education reform at the high school level.
    6. Moving to a customer service model versus a compliance model 
would be most helpful. Firing a principal and half of the staff of a 
200-student high school in rural America will not provide the change 
expected. In fact, that would be a tragedy in a small rural community.
    7. Assist districts in developing partnerships with local 
stakeholders in educating our youth. Programs such as ``Ready by 21'' 
could be developed in most communities with the assistance of the 
Federal Government and could be funded as a part of ESEA. This would 
include educational agencies from preschool to graduate school. A 
collaborative model for educational agencies to work together for the 
common good is needed. It is too easy to point the finger at someone 
else for not doing their job. Joining them in the work to develop a 
better understanding of the barriers to success would actually benefit 
our students.

    Educators are not afraid of accountability. We certainly aren't in 
Park 1. There does need to be a realization that there are too many 
students that aren't ready to attend school or do not receive any 
support outside of the school setting to become career- or college-
ready.
    Thank you again for offering me this opportunity to share my 
comments with you. I would answer any questions that you might have for 
me.

    Senator Enzi. Thank you.
    Dr. Velle.

  STATEMENT OF VERLYN VELLE, Ed.D., COORDINATOR OF CAREER AND 
TECHNICAL EDUCATION, CAMPBELL COUNTY SCHOOL DISTRICT, GILLETTE, 
                               WY

    Ms. Velle. Senator Enzi, members of the panel, and 
audience. I am thrilled to hear that Paul was doing some career 
academies, because that's what I'm going to be talking about. I 
was asked to talk about the concept that we have begun at 
Campbell County High School, and it has mostly to do with 
career academies.
    Career academies may or may not be quite what we're talking 
about, but in most career academies--well, in Wyoming, first of 
all, most of our schools are really small. What happens in a 
really small school is that these great relationships are 
formed between parents and the school, and the teachers and the 
administrators and everybody. You know, one of the students is 
missing, all of the teachers know it, and they call Mom and Dad 
and they try to find out why the student was missing and that 
sort of thing.
    What we have done is try to focus on some careers and I 
want you to know that we've made some major mistakes. It's a 
very slow process, and we've been learning all the way along.
    Most career academies--this is an old concept that was 
developed in Philadelphia about 40 years ago, but it's kind of 
new to Wyoming. What happens in our academies is that we try to 
keep the students together for at least 2 years. If they can 
stay together for 3 years, it would be great. We have two 
different campuses, so it's a little farther, but they stay 
together, and we try to keep them with the same teachers, as 
well.
    One of the things that we found out from trying to do 
career academies is that there's a lot of data that's been 
collected, nationwide. The data has really supported our 
interest in doing career academies.
    For instance, in California, the students have 10 percent 
higher graduation rate if they're in an academy. Now, there are 
lots of different ways that you can do research, and everybody 
knows that, and data can be used for all different kinds of 
things. What we found in nationwide kinds of research is that 
students graduated at a higher rate; less drop-outs, then, of 
course. They have better academic entrance into college, or 
into a job, they have--this seems very strange, I'm sure--but 
they have been shown to have a better family life, and have 
kept their jobs longer. There are all kinds of research that we 
could go into.
    The National Coalition on Career Academies says that there 
are a number of things that you should focus on in a career 
academy. That is, first of all, your focus should be on both 
college and careers. We should raise student aspirations and 
commitment. And that we should increase student achievement. 
Those are the things that we are hoping to do.
    Since our high school is about, almost 1,400 students, it 
doesn't have that same, small--like my high school has 250 
students, so every student knows every student, and every 
teacher knows every student. During the school day, you have 
1,400 students, you have what are called growth students, and 
those are the students that get lost. They are doing something 
that pulls them in.
    What we did in Campbell County is, we started out by taking 
people to see academies that worked well. So, we went to 
California, we went to Florida, and we visited Palm Beach, FL, 
where that school district has over 100 career academies in 98 
high schools. We took the school board, members of the school 
board, we took administrators, we took teachers. It has been 
very clear to us that, unless you see it, you don't believe it. 
It was always a good thing to take people to see these career 
academies.
    Once they see that and listen to the students talk about 
what they've learned, how they've been a part of something, all 
of those relationships that they've formed, then that's when 
they become believers.
    I too, am really interested in the--we call them the Four 
R's--not reading, `rithmetic', that kind of thing--the Four R's 
that we talk about in our career academies are our rigor, 
relevance, relationships, and the last one is reflection--
you've got to think about what you have learned.
    We have, right now, three academies, two of them are going 
to start in the fall. Our first one was an ``Energy Academy.'' 
Obviously, if you're going to do a career academy, you have to 
take what's happening in the community into--that's got to be 
the main focus. We've got an Energy Academy, great. What 
happened was, that there was an effort in a CTE program. What 
we found with our career academies that they have to be 
anchored in CTE.
    Senator Enzi. CTE is?
    Ms. Velle. Career Technical Education.
    Senator Enzi. Thank you.
    Ms. Velle. Our next academies Hospitality and Tourism which 
includes culinary arts, and transportation, and transportation 
technology, and that includes the whole energy theme, as well, 
because we have the solar and water technology and all of that 
sort of thing.
    We start with sophomore, we get a small group of 
sophomores, and each year we add some more sophomores. 
Hopefully when these students get to be seniors, there will be 
about 150 of them in an academy.
    Now, nationwide statistics say that anything under 500 is a 
smaller community, but for us, that's pretty high. We're trying 
to get about 150 in each one of these.
    These are things that have to be revisited all of the time. 
My time is up, so I will stop there.
    [The prepared statement of Ms. Velle follows:]
               Prepared Statement of Verlyn Velle, Ed.D.
                                summary
Restructuring Rural High Schools--A Career Academy Concept
    Why do we need to change? Albert Einstein once said, ``The 
definition of insanity is doing the same thing over and over and 
expecting different results.'' Career academies provide change in 
student interest in school, an increase in a sense of belonging and 
improved attendance and graduation rates. Career Academies reduce 
dropout rates and better prepare students to succeed into adulthood. 
And they increase student achievement through relationships.
 effectiveness of career academies (national career academy coalition)
    When career academy students are compared to non-academy students 
in the very same high school we find that academy students nationally:

    <bullet> earn more credits upon high school graduation (8 percent-
15 percent more);
    <bullet> graduation rate is considerably higher (CA. 10 percent 
higher);
    <bullet> drop out of school at a lower rate (7.3 percent-14.6 
percent lower);
    <bullet> enroll in post-secondary education at a higher rate (62 
percent vs. 47 percent);
    <bullet> matriculate from 2-year and 4-year colleges at a higher 
rate (52 percent vs. 36 percent);
    <bullet> report lower remediation rate than the national average (8 
percent vs. 20 percent);
    <bullet> earned higher hourly wages, worked more hours per week, 
had more months of employment and earned about 10 percent more per 
month;
    <bullet> pass State exams at a higher rate (language arts 84 
percent vs. 76 percent; math 80 percent vs. 74 percent); and
    <bullet> meet college entrance course requirements at a higher rate 
(50 percent vs. 39 percent).

    In Campbell County School District, we have not had career 
academies long enough to have had any students graduate, however, we 
now have a class of 27 seniors, who are completely dedicated to the 
Career Academy concept, as well as 47 juniors in the Energy Academy. We 
will start two additional career academies this fall in the areas of 
Transportation Technology and Hospitality and Tourism. We have learned 
much along the way, especially in the areas of communication concerning 
career academies and support of the concept from some administrators 
and teachers. We do have very strong support from parents and the 
community as a whole, generally expressing a desire to have more career 
academies added to the high school.
    Because of the sequence of courses required in Career and Technical 
Education at Campbell County High School, students are really enrolled 
in a career academy of sorts, only lacking the core academic teacher 
involvement and integration. These areas include: Agriculture; Project 
Lead The Way (pre-engineering), Business and Finance and Television, 
Broadcasting and Animation Production and Careers, and generally 
involve at least 2 years with the same group of students. Emphasis is 
on the ``Four R's--Rigor, Relevance, Relationships and Reflection''.
                                 ______
                                 
    The ``Small Learning Community'' concept is probably the most 
common model for high schools in Wyoming, many of them having less than 
500 students. In that model there is a strong relationship between the 
teachers and the students, the administration and the teachers and the 
students, and between the school and the community. When schools begin 
having a student enrollment of over a thousand, those relationships are 
generally not as strong or supportive and many students get lost simply 
because of the size of the school. Campbell County High School is not a 
typical rural school because it has a student population of 
approximately 1,400. This large number of students has led to a fairly 
high dropout rate and a graduation rate that is lower than desired. 
With those opportunities in mind, the Campbell County Board of 
Education members, the Superintendent, several administrators, career 
and technical education and core academic teachers and community 
leaders began looking at a model that would benefit the students in 
preparing them for careers and for college and as a side benefit, for 
the community to address workforce needs. That model is a type of 
``Small Learning Community'' the career academy concept.
                       what is a career academy?
    The concept of career academies originated 40 years ago to address 
academic rigor, relevance of instruction and to build strong and 
supportive relationships between students and adults. The success of 
career academies over the years has been attributed to their dual 
objective of college and career preparation, the broad cross section of 
students they serve, as well as paying close attention to data and 
research. Students who participate in academies are engaged in a 
significant way, as academies support the students' positive 
motivations. Understanding the student's motivations or career goals 
have helped engage students in a significant way. We also know that 
career academies within small learning communities foster 
accountability at every level.
    A career academy is generally comprised of a group of students that 
takes classes together for at least 2 years and has a team of both 
career technical education teachers and core academic teachers who stay 
with that group as much as possible. Career academies generally have a 
career theme that helps students to see the relationship between what 
they are learning in their academic subjects and the application to 
real world work, which get to the question of ``why do I have to learn 
this?'' before the student asks. They also help to develop partnerships 
with employers, the community and the local community college. Students 
have the opportunity to get real world work-based learning through 
mentorships (unpaid), internships (paid), on-the-job training, job 
shadowing and school-based enterprises, such as Cafe' Latte' and Camel 
Cafe', both within junior high and high school culinary arts classes.
    The National Standards of Practice for Career Academies recommends 
that every career academy has a written definition of its mission and 
goals. These should be available to the administrators, teachers, 
students, parents, advisory board and others involved in the academy. 
These include at least the following:

    a A focus on college and career. Academies enable students to 
complete college entrance academic requirements while exposing them to 
a vertical segment of the occupations within a career field, 
encouraging them to aim as high as they wish.
    b Raise student aspirations and commitment. An academy seeks to 
increase the level of the students' motivation while in high school. 
The biggest limiting factor in many youths future plans is not their 
ability, but where they set their sights.
    c Increase student achievement. An academy provides support to its 
students to increase their achievement in high school. This comes 
through close relationships with teachers and fellow students, rigorous 
and relevant curriculum and exposure to career and educational options 
outside the high school.
                  some research about career academies
    Research tells us that students who are involved in a career 
pathway or a career academy stay in school, graduate at a higher rate, 
get better grades, do better and stay longer in college or career 
academies and strangely enough, have been reported to establish more 
fulfilling homes and families. (David Stern, Charles Dayton, and 
Marilyn Raby. February 2010, ``Career Academies: A Proven Strategy to 
Prepare High School Students for College and Careers'').
             history of career academies in campbell county
    Campbell County School District began using a structure that 
involved four Career Pathways in the mid-1990s when ``School to 
Careers'' was a major focus of the Federal legislature. An emphasis was 
placed on giving students a better understanding of how their likes and 
dislikes should play into selecting a career. This allowed students the 
opportunity to learn about the career options available for them. Grant 
money was used to establish career centers, employ career-center 
directors and assist students in a comprehensive K-16 program of study 
or individual 4- or 5-year career plan. The four career pathways that 
were developed at that time--validated by local industry--have remained 
a viable vehicle for assisting students to get into classes that will 
enhance their career or higher education choices. Although students 
were provided with the opportunity to visit the career centers and take 
an ``Individualized Interest Inventory'' to help them select some 
career options and one of the four pathways, there is a gap between the 
student knowledge of the career pathways and the teachers interest in 
learning about them. Because change is so hard, many teachers simple 
rely on the old adage that ``this too shall pass!''. Change is 
difficult, and can be very challenging, but it is time to embrace 
changes that will advance the educational opportunities of our youth!
    There is a story about an engineer, a doctor and a teacher who 
lived 100 years ago and came back to see what the world was like today. 
Both the engineer and the doctor could hardly recognize anything that 
had to do with their chosen career; buildings, bridges and hospitals 
had changed tremendously. However, the teacher could easily identify 
the schools and the classrooms. Teachers were still in their own 
individual classrooms, teaching by themselves and most of the buildings 
still looked the same on the outside. Fortunately, the technology used 
within the classrooms has improved.
  what steps has campbell county school district taken to learn more 
                 about and implement career academies?
    It has become glaringly obvious to those of us supporting the 
career academy concept that one must ``see it to believe it!''. With 
that in mind several groups had the opportunity to visit school 
districts with successful career academies, beginning with the members 
of the Board of Education and the Superintendent. The next opportunity 
was for other administrators and counselors along with interested 
instructors to do some career academy site visits. Some of the schools/
school districts visited were in Bakersfield, CA, because of their 
emphasis on energy-related areas, Palm Beach School District in Florida 
(over 100 career academies in 98 high schools), San Diego City schools, 
wall-to-wall career academies, Junction City, KS, EVIT Culinary Academy 
in Phoenix, AZ, four career academy schools in Brooklyn, NY and most 
recently, a group of the Hospitality and Tourism Advisory Board members 
from Gillette visited Mt. Diablo Culinary Academy in Napa, CA. Once 
participants have had the opportunity to watch the operation of a 
career academy and to speak with the students, they become totally 
supportive and aware of the benefits being in a career academy has on 
student achievement and outcomes.
    Another step taken to increase awareness of the benefits of career 
academies was to hold large community dinners with guest speakers from 
the Career Academy world. Three such dinners have been held, supported 
by the Board of Cooperative Higher Education Services. The first 
speaker was Deb Mills, from The Center for Occupational Research and 
Development in Waco, TX. The second guest speaker was Dr. Ken Grey, 
author of ``Other Ways to Win'' and the third was Ms. Connie Scotchel-
Gross, Career Technical Education director for all the career academy 
schools in Palm Beach County, FL. These dinners included parents, 
community members from business and industry, administrators, school 
board members, students, counselors and other interested persons. Since 
that time other experts have been brought into the school district to 
train interdisciplinary teams of teachers in the areas of Integration 
of Career and Technical Education with Core Academics, Project-based 
Teaching and Learning and Reforming Education Through Smaller Learning 
Communities.
    The Wyoming Department of Education, Career and Technical Education 
Unit, has been invaluable in helping to promote the career academy 
concept in Wyoming. They were responsible for funding three 
Demonstration Site Grants, one of which Campbell County School District 
received to establish an ``Academy of Hospitality and Tourism''. They 
also sponsored a State-wide career academy conference in March, 2010, 
and invited a Career Academy guru to be the keynote speaker for the 
Wyoming Association for Career and Technical Education Conference in 
Buffalo, Wyoming in June of this year. The speaker, Dr. Valerie Jones, 
Assistant Principal from Braden River High School in Bradenton, FL was 
successful in structuring a new high school into three career academy 
pathways. In 3 years she attained cooperation from all parties and the 
school was such a hit that there is a waiting list to get in. Dr. Jones 
was asked to repeat her achievement in a tougher 70 percent title I 
environment. She was given just a year to come into a traditional high 
school, win support of councilors, teachers and administrators, train 
them all and work through the class schedules. How's she doing? ``Right 
on Track'' The secret of her success is that every teacher, counselor, 
administrator and student is aware of and involved with one of the 
Career Academy/Pathways. Braden River uses only three pathways. Our 
four pathways are well established and could possibly present a 
workable structural option for Campbell County High School. The mantra 
is: ``if it is good enough for some students--why not for all 
students?''.
                   what we have learned along the way
    First, change is REALLY hard and second, there must be a Career and 
Technical Education sequence of courses available for the academy 
students.
    The first career academy that was started at Campbell County High 
School was an ``Energy Academy'', which had all the major components of 
an academy except for CTE classes on which to base student career 
choice. So, students wanted to be in the academy for the relationship 
part of the academy, but were scattered as to their career goals. 
Students wanted to be doctors, architects, cosmetologists, engineers, 
everything but energy-related kinds of careers. Because of that, nearly 
half of the 50 beginning academy students opted out of the academy the 
second year as they all needed different math classes, different 
science classes and wanted to take AP and college classes, which 
weren't built into the Energy Academy. The good news was that not one 
of the Energy Academy students dropped out of school.
    There was a very strong group of academy ambassadors from the first 
year who went to the Junior High schools to recruit the students for 
the second year of the Energy Academy. Because of the interest and 
enthusiasm of the ambassadors, 50 ninth grade students signed up for 
the Energy Academy year 2. We are starting year 3 of the Energy Academy 
now in the fall with 27 seniors and 47 juniors. Most of these students 
have had the same core academic teachers for 2 years, but have only 
worked with a team including career and technical education teachers 
for one or two projects. This career academy will be continued until 
these students graduate in 2 more years.
    It was then decided to morph the Energy Academy into a 
Transportation Technology Academy, or perhaps, an Energy/Transportation 
Academy for students with a clear career goal in the transportation 
field. They will be taking a sequence of auto tech courses from 
Campbell County High School and their capstone courses in Diesel 
Technology from Gillette College. The career technical education 
teachers have been meeting with the core academic teachers this summer 
to prepare the curriculum for next year. So there will be an English 
teacher, a math teacher, a science teacher and two auto tech teachers 
working together for the Transportation Technology Academy team.
    The third career academy is the Hospitality and Tourism academy 
which is one of the outcomes of the Department of Education 
Demonstration Site grant. Again there is a team of core academic 
teachers, culinary arts teachers and marketing teachers who will be 
working with the students beginning as sophomores this fall. As soon as 
the academy students are ready, they will be able to go to the Gillette 
College Tech Center state-of-the art culinary kitchen and ultimately 
will serve meals in the dining room there.
    Assisting in student knowledge and interest in career academies are 
two opportunities for students to enroll in specialized career classes 
at the ninth grade level. Sage Valley Junior High has a class called 
``Cruising to Careers'' co-taught by a Family and Consumer Science 
Teacher and a Business Education Teacher. And Twin Spruce Junior High 
has a class called, ``The Real Game'', also taught by a Family and 
Consumer Science Teacher.
                      more things we have learned
    Each Career Academy must have an advisory board made up of local 
business and industry representatives. These members can provide job 
shadow and field trip sites, help with curriculum issues, act as guest 
instructors, help with activities such as the academy picnic, provide 
mentorship and internship sites and much more.
    Both junior high and high school counselors must be on board with 
the career academy concept, because they are key to placing students in 
the appropriate majors and elective classes. Counselors must be very 
careful to assign a broad spectrum of students in the career academies 
and not emphasize the benefits to only ``at-risk'' students.
    Unfortunately, scheduling Small Learning Communities within a 
larger high school configuration can be a nightmare. Career academy 
students generally must be hand-scheduled, because of the sequence of 
courses required and the desire to keep all career academy students 
together for 2 years as much as possible.
    Intensive conversation and professional development is extremely 
necessary to assure that all teachers, students, administrators, 
counselors and parents are aware of the value of career academies for 
student success.
    Without clear direction for change from the Superintendent and the 
Board of Education to be carried out by the high school principals, 
with support of the other district administrators, the likelihood of 
success is limited.
    The schools that we have visited with career academies generally 
have an administrator, a counselor and a director or lead teacher 
assigned to each academy or pathway.
    As much as possible, the career academies should be physically 
close to each other, such as one academy upstairs and one downstairs or 
one per hallway. This requires the breaking up of departments causing 
much teacher stress.
    Students should be allowed to change academies, only after they 
have completed a school year in the one that they selected first.
    Whenever possible, teams of teachers should have a common planning 
time during the school day and should be allowed to spend professional 
development time in designing interdisciplinary projects and 
curriculum.
    It is helpful to have the Career Center Directors work closely with 
counselors, especially those assigned to the ninth grade, to assist 
students in selecting their majors. They will also work with teachers, 
providing information and professional development around the career 
pathway/academy concept.
    It is very difficult to have career academies in the truest sense 
of the word when you have a two-campus model. One campus for sophomores 
and another for juniors and seniors, because the students have a hard 
time staying with the same teacher for more than 1 year.
                               conclusion
    We know that we are losing students! No matter what the number, to 
lose even one student is problematic and not acceptable. Establishing 
our ``career academies or small learning communities'' we have learned 
much the first couple of years and will probably do even more 
``tweaking''. But schools where the pathway or academy system is well-
established have found considerable success, which is the goal in 
Campbell County School District.

    Senator Enzi. You're all being very punctual, we appreciate 
that.
     Mr. Jensen.

STATEMENT OF BRANDON JENSEN, PRINCIPAL, CODY HIGH SCHOOL, CODY, 
                               WY

    Mr. Jensen. Senator Enzi, I appreciate the opportunity to 
be here, and to be representing Cody High School. I'm kind of 
the hands-on administrator, if you will, I guess I'm the lowest 
on the totem pole as I sit and look at everybody here.
    I'm very proud to be part of Cody High School and some of 
the things we are doing there. I was asked to talk about how 
high schools are talking about diversity in needs, and to talk 
about some of the things that we're doing at Cody High School 
that are making a positive impact on the lives of our students, 
especially in their achievement, their education.
    Just to let you know, Cody High School has about 680 
students that we serve, and with that, we still, we carry over 
a 95 percent attendance rate, our graduation rate most recently 
came out, was 92 percent. We feel like we do a really good job 
of educating our students. We're big enough where we can offer 
comprehensive curriculums, but not so small--we're big enough 
that we can offer things, but small enough, still, where we can 
develop those relationships that we discussed, here, which I 
feel is a real important part of education.
    I guess, in a way, we know that we do a very good job, we 
know that we've still got a ways to go, because 92 percent 
graduation rate isn't our goal. Our goal is to be 100 percent, 
and make sure that all of our kids succeed. We realize that 
we've got a lot of work to do.
    In sharing with you some of the things that we've done in 
the last couple of years to better serve our students, I guess 
I'd like to talk a little bit about the school improvement 
model that we've adopted, and it's called NS--it's something 
that's been around, and it's not something new, but it's 
something that we've taken and we're running with, and we've 
found good results with. We're using professional learning 
communities to drive everything we do. In a way, it focuses on 
three different areas. No. 1 is, learning for all--both 
students and staff--becomes a priority. The second part is 
creating a collaborative culture, and the last one is a focus 
on results. As we kind of reorganized how we do things, 
everything we do at our school revolves around four critical 
questions, whether it's lesson planning, whether it's looking 
at essential outcomes, everything we do starts with: What do we 
want each student to learn? How will we know when each student 
has learned it? How will we respond when a student experiences 
difficulty? How will we respond when a student already knows 
it? That really has helped us develop some interventions and 
some strategies on better reaching our students and helping 
them succeed. Collaboration has been a huge cultural shift for 
us, and I don't know how much experience you have being in a 
high school, all I can tell you, as a high school teacher that 
is isolationism at its finest. I go into my own little world, I 
shut my door and it's my world, and I'm going to do what I'm 
going to do. We are trying to break down those barriers 
because, quite frankly, we've got some great pockets of 
excellence where a teacher could do that, and those students 
would be just fine. In the same course, with a different 
teacher, those students are going to walk out of those same 
courses with very different experiences, very different levels 
of learning, and quite frankly, we owe those students the 
opportunity--guaranteed--that every one of those students, 
regardless of teacher, regardless of course, comes out with the 
same essential learning outcome.
    It's been an awesome process because our staff has done a 
really good job--and we've taken groups of people that, at one 
point really didn't even talk to each other, to now they can't 
get enough time working together. We've really seen an awesome 
cultural shift with that.
    These teachers are developing what we call essential 
learning outcomes, where we're simplifying. It's saying that 
every course has at least eight outcomes that every student has 
to know, we're guaranteeing that. Everything we do has to meet 
those--everything beyond that is icing on the cake, but we've 
got to guarantee all students get that. These teachers are 
developing common, formative assessments where they can 
periodically check how they're doing, and then compare with 
each other. Talk about conferring the brutal facts, sometimes--
when you're a teacher and your data shows that you're not 
getting it done when the other people are, that's a time for 
reflection to say, ``How are you getting it done? Because I'm 
not.'' That's not easy for people to do, but it's something 
that we need to do if we're going to get better. I've been 
pleased with our teachers' willingness to do that.
    We're constantly planted in the set of, looking at our 
data, seeing what our current achievement levels are, setting 
goals on how we're going to meet those, and then periodically 
checking to see how we're doing. It's a cycle that we're in. In 
the last couple of years it's been very successful.
    We've carved out some time for collaboration, having early- 
or late-start Mondays where teachers come in at their normal 
7:30 time, students don't come in until 9 o'clock, and that's 
been very beneficial, because there's a lot of work to do. 
Teachers need time to be prescriptive when they're working with 
each one of these students, and that's one thing I wish we had 
more of, is time.
    Regarding some advantages and challenges of a rural school, 
I talked a little bit about one of the advantages is that you 
get to know kids, and you can really develop those 
relationships--not just staff, but parents, community members--
there is a little more bonding that can go on, because 
everybody tends to know everyone.
    My concern, especially at the rural school level, is our 
at-risk students. Those are the ones that, in a lot of ways, 
are not helping us meet that 100 percent; those are that 8 
percent that are missing. In these rural schools staffing 
ratios become an issue because these students need some 
support. We just don't have the staff to support them, and 
that's difficult.
    The other thing is, is when our focus becomes all on math 
scores and English scores, and AYP, what do they cut? They cut 
the voc ed classes, they cut the fine arts things to focus on 
these other areas, and in many cases, those are the kinds of 
courses these students need to be successful. I think this is a 
real disadvantage.
    I know that one of the concerns I have as far as NCOB is 
balancing the needs of the rural schools with the urban 
schools. It seems like NCOB is very urban-school driven. That 
kind of leaves us in the dark sometimes, and that's a shame 
because our students deserve more.
    I appreciate the opportunity to speak to you.
    [The prepared statement of Mr. Jensen follows:]
                  Prepared Statement of Brandon Jensen
                                summary
    Thank you and introduction of Cody High School

    Purpose of testimony

    How high schools are adapting to meet diverse student needs

    What we are doing at Cody High School that has made a positive 
impact?

    Cultural Shift at Cody High School

        <bullet> Professional Learning Communities as our model for 
        school improvement
        <bullet> Focus on four crucial questions

          1. What do we want each student to learn?
          2. How will we know when each student has learned it?
          3. How will we respond when a student experiences difficulty 
        in learning?
          4. How will we respond when a student already knows it?

        <bullet> Collaboration

        <bullet> Focus on results

    Advantages and Challenges of a rural high school

        <bullet> Big enough to offer comprehensive curriculum but still 
        small enough to foster positive relationships.
        <bullet> At-risk students an issue of concern

          <bullet>  Rural schools having to cut career/technical 
        courses
          <bullet>  Transition school and student support center

    Recommendations for reauthorization of ESEA

        <bullet> How to balance the needs of rural schools with the 
        needs of urban schools?
        <bullet> Growth model in measuring academic success
        <bullet> Allowance of multiple measures of student performance 
        to determine AYP
        <bullet> Graduation rates to be determined by mastery of 
        competency, not the ability to graduate in 4 years.
                                 ______
                                 
    Senator Enzi and other members of the committee, thank you for 
inviting me to speak today. I am the new incoming principal at Cody 
High School in Cody, WY. At Cody High School we are striving to create 
a student-centered environment that provides multiple opportunities for 
students. Our everyday focus is embedded in our school mission: ``Every 
student. Every chance. Every Day.'' Cody High School offers a 
comprehensive academic program that includes Advanced Placement 
offerings, honors offerings, career and technical courses, and special 
education. We serve 681 students in grades 9-12, of which 20 percent 
are served by free and reduced lunch. Our attendance rate is above 95 
percent and our most recent high school graduation rate is 92 percent, 
up 3 percent from the previous year. This data helps support the 
approach we are taking in trying to meet the needs of our students.
    As a current high school administrator, I have been asked to share 
with you my perspective about how high schools have changed and adapted 
to meet the diverse needs of students. I would also like to share with 
you some of the things we are doing at Cody High School to engage 
students in their education and prepare them with the knowledge and 
skills they need for success in post-secondary education and the 
workforce. In my role as principal and assistant principal, I have been 
directly involved in transforming our school culture to one that is 
collaborative, learning-
focused, and dynamic to better meet the needs of our students.
    Today, I'd like to highlight some of the key components of our 
school's shift in culture and the success we are having with students 
from a rural high school. For your consideration, I will also touch on 
some of the benefits and challenges that are specific to small rural 
high schools as you reauthorize the Elementary and Secondary Education 
Act.
                             cultural shift
    Three years ago, we began to look at ways to better serve our 
students in a rapidly changing 21st century world and to better prepare 
them for life beyond high school. What we determined was that a real 
shift in the way we did things needed to occur for us to reach levels 
of student achievement previously unattained. We found our change agent 
in the implementation of professional learning communities as our model 
for school improvement. Our emphasis is on learning for all (students 
and adults), building a collaborative culture, and maintaining a 
constant focus on results.
    Over the past several years, our fundamental purpose has shifted 
from a focus on teaching to a focus on learning. The most profound 
impact this has had on our staff and students comes from the four 
crucial questions that drive all of the work we do:

    1. What do we want each student to learn?
    2. How will we know when each student has learned it?
    3. How will we respond when a student experiences difficulty in 
learning?
    4. How will we respond when a student already knows it?

    These questions alone have provided us a new focus on student 
learning and are having a strong impact on how we approach teaching 
students, developing interventions that increase learning opportunities 
and ultimately, improving student achievement.
    Another huge shift has occurred in the way we work with one 
another. We are making the move from teaching in isolation to one of 
collaboration. To most effectively answer our crucial questions, it is 
imperative that teachers work together in developing essential learning 
outcomes that are guaranteed to be learned, regardless of the teacher, 
and then work together to analyze and improve classroom practice. For 
learning to improve and for teachers to be able to be prescriptive to 
individual student needs, they need additional time to perfect their 
craft. Professional development needs to be focused on our staff needs. 
The past 2 years we have been able to carve out consistent amounts of 
time during the instructional day to allow for this collaboration to 
occur throughout the year. This is necessary to accomplish the amount 
of work required to answer our crucial questions. However, budget 
restraints and ``one and done'' professional development programs make 
it difficult to create real change in what we do. What we have found is 
that we have many teachers with years of experience and expertise that 
are valuable and accessible. By working together collaboratively, our 
teachers are expected to share ideas, materials, and effective 
strategies that meet the needs of all students.
    The last cultural change has been a greater focus on results to 
judge our effectiveness. Teacher teams at Cody High School participate 
in an ongoing process of identifying current levels of student 
achievement, establishing goals to improve the current level, and then 
working together to achieve that goal while providing periodical 
evidence of progress. Our teacher teams have spent the past 2 years 
developing not only essential course outcomes for each course but are 
also creating common formative assessments that allow teachers to know 
if classroom practice is effective and to compare with one another to 
look for gaps in teaching and learning. This allows for teachers to 
identify areas of the curriculum that need more attention and to 
consciously look for successful practice by other teachers that they 
can replicate in their own practice.
            advantages and challenges of a rural high school
    There are both advantages and challenges of a rural high school. 
Cody High School prides itself on being big enough to offer a 
comprehensive high school program, including a comprehensive career and 
technical educational program, to meet the needs of all student groups. 
Yet it is small enough to allow for the development of relationships 
that support learning and student achievement. My belief is that these 
relationships are crucial to student growth and achievement. The 
greatest challenges rural high schools face is being able to 
appropriately serve the at-risk students that all schools have and need 
to reach. Staffing ratios in smaller/rural schools make it difficult to 
give these students the support they need. Many rural schools don't 
have the necessary resources to offer comprehensive curriculums and 
comprehensive career and technical experiences are generally lacking. 
When scores in math, science, English, and AYP drive a rural school's 
focus, the first things to cut out become the vocational programs that 
many of these at-risk students need. The benefit of these career/
technical courses is that they allow for different types of learning 
and application of learning. These are generally the exact types of 
classes our at-risk students need and excel at. Cody High School has 
been somewhat successful in identifying at-risk students early and 
applying specific interventions and strategies that are proven to allow 
all students to experience academic success. Without additional 
resources, we have developed a transition school that provides key 
academic support to specific students who struggle in a regular 
classroom as well as teach them skills that are necessary for success 
in life such as collaboration, problem-solving strategies, study 
skills, and interpersonal interaction. We have also transformed our in-
school suspension program into a student support center that teams with 
our transition school to help students who struggle with academic and 
attendance issues. While early in their implementation, they have shown 
signs of being effective in helping our at-risk students and are part 
of the reason for our high graduation rate.
                          key recommendations
    I offer several recommendations for you to consider as you 
reauthorize the ESEA.

    1. I believe that we need to look at how to balance the needs of 
the rural school with the needs of the urban school. Many of the issues 
facing schools in general today are similar in nature, but there are 
also some vast differences between rural and urban schools. As such, 
they cannot be looked at in the same light on every issue just as we 
expect all students to learn and achieve at the same rate.
    2. I fully support the recommendation that States should be allowed 
to measure AYP for each student subgroup on the basis of State-
developed growth formulas that calculate growth in individual student 
achievement from year to year. I also support States being allowed to 
use multiple measures of student performance in determining AYP and not 
just State assessments in language arts, math, and science.
    3. In regards to graduation rates, I support student performance 
being measured by master of subject competency rather than by the 
ability to graduate in 4 years. Not all students entering the 9th grade 
arrive with the same levels of knowledge and ability and not all 
students learn and grow at the same rate.

    Thank you again for this opportunity to speak to you today.

    Senator Enzi. You mentioned the need for the rural 
differences and that's one of the reasons we're doing this 
hearing. I have had a couple of people come to Washington from 
Wyoming and testify and they've been able to point that out 
real well. I did get the Secretary of Education, Arne Duncan, 
to come to Glen Rock and we had people there from all over the 
State. What pleased me is the comments were a representative 
cross-section of what I hear all over the State, and he got to 
hear it directly and took good notes. Since that meeting he has 
said some of the things he heard that day back to me. People in 
Wyoming are good educators.
    I appreciate the testimony today, but, there are a couple 
of things that I want you just to briefly explain a little bit 
more.
    Dr. Abernethy, the P-16 Council, a lot of people might not 
be familiar with what that is, so, can you please explain the 
purpose of the Council?
    Mr. Abernethy. Senator Enzi, yes, I will be happy to talk a 
little bit more about the Wyoming P-16 Education Council. Five 
minutes isn't very long.
    It's a nonprofit organization, we're in our 3rd year. 
Representation on our Council is from all sectors of education, 
K-12, community college and the university. It involves 
policymakers, two legislators--three legislators, now. Wyoming 
Department of Education is represented. It's the spectrum of 
education and community, in a sense, brought together as an 
organization. We have, only about a month ago, decided as a 
Council we're mature enough now to expand our membership a bit, 
so we will be bringing in a superintendent and some more 
faculty, actually, some more teachers. We have two teachers on 
the Council, now, and we'll increase that number.
    Our goals are pretty simple, but they're very difficult to 
achieve. They're easy to say and hard to do. It's simply 
increasing post-secondary preparation through better completion 
at every level. We want more students to complete through K-12, 
and we talk about post-secondary in a very broad term. We talk 
about postsecondary--when I do, in this sense--I mean something 
after high school. I think most people are increasingly 
believing that, today, to be successful in our complex world, a 
global economy that we live in, to have the best career, the 
best opportunities, you really do need to have some education 
after high school. That's what we mean, and that's what our 
goals are, are to get more students to do that, in Wyoming.
    Senator Enzi. And the P stands for?
    Mr. Abernethy. Primary.
    Senator Enzi. Oh, OK.
    Mr. Abernethy. Primary school through----
    Senator Enzi. Primary, preschool, postsecondary----
    [Laughter.]
    OK, thanks.
    Mr. Abernethy. We could start sooner, but----
    [Laughter.]
    Senator Enzi. We put a lot of emphasis on preschool, too, 
because that does make a difference.
    Dr. Rose, you mentioned the need for good resources, and 
attributed that as data, which I was very pleased to hear. 
There are a lot of resources that are needed, but I've gotten 
to talk to the Gates Foundation a few times, regarding the work 
they're doing in education and before they put any money into 
anything, they come up with a list of data criteria that's all 
measurable. I don't know if you've run into that or not, or how 
you're coming into developing the data requirements--that's 
what we need, data requirements. I served with John for a long 
time, actually, John was my mentor, he'd been there awhile 
before I got to the legislature.
    When we talk about education, one of the things that is 
frustrating to legislators is, how do we tell people that we're 
getting something for the money that we put out there. That's 
where the testing programs come from. If you have testing, and 
data that can be compared across the United States and your 
group does real well, you can say, ``Hey, our money is really 
doing well, we're better than everybody else.'' We want that 
Lake Woebegone syndrome to crop in there.
    Well, this question is for any of you, what kind of data do 
we need to measure success? We're talking about changing to 
growth models, now, and I'm sure that's going to happen, so we 
can tell how much child development is ideal and instead of 
highly qualified teachers, we're going to be talking about 
highly effective teachers, which are the teachers that are able 
to move people along a little bit more than average.
    What kinds of data would be useful to teachers, and again, 
for our bragging rights?
    Mr. Rose. Well, I might just start by giving you one 
example that we're trying to employ in the community college 
funding system, and that is to move from a system that 
essentially funds based upon students who are enrolled in a 
class, which we know is very important--students have to be 
able to get in the door before they can begin to make progress.
    The problem with that is, that those students may not make 
it to the end of the semester. Certainly many of them, and 
particularly in community colleges, many of them don't ever 
walk across the stage, with any kind of certificate or diploma.
    One of the things we have implemented as part of our 
Strategic Plan, and I gave Beth a copy, and I have plenty to 
share--our Strategic Plan was adopted last year and presented 
to the legislature and has now become our guiding, sort of, 
document. It incorporates a completion component in terms of 
our funding models, so that we are beginning to implement a 
funding process that says, a student will--and a college will--
gain a certain portion of funding for the enrollment that they 
achieve. As you know, across the country, Senator, enrollments 
in community colleges are just ballooning.
    The problem is, if we don't increase completion, if we 
don't get credentials that are valuable to people so that they 
can improve their sustainable wages and contribute to the 
economy, those enrollments, really, are kind of a hollow 
victory.
    We are incorporating in our funding model a completion 
component, that says a certain portion of your funding, as a 
college, will depend on not how many you put in the seats at 
the beginning, but how many actually make a passing grade? It's 
where the data piece comes in, because we have to have very 
sophisticated unitary data--we have to know student by student 
how many complete. That's one of the pieces that is not 
directly resource-driven, but in fact really is the reverse. It 
drives the resources.
    Senator Enzi. OK, thanks.
    Mr. Mitchell, I've got one definitional question, here, you 
said ``the D/F list decreased.'' I'm not sure that I know what 
a D/F list is.
    Mr. Mitchell. The students that received a D or an F in a 
class.
    Senator Enzi. Ah, OK.
    Mr. Mitchell. Because they were not turning their 
assignments in, now they're forced to go to lunch and do their 
assignments, so they are increasing the grade point average.
    Senator Enzi. Excellent.
    You also mentioned you were having articulation discussions 
with the community college?
    Mr. Mitchell. Yes, we are--we're not too far away from the 
Northwest College Campus of Powell High School, and we're just 
starting to have discussions with math instructors, language 
arts instructors about what it takes for us to prepare a 
student to go to Northwest College.
    We had to start that within our own system about 3 years 
ago, we started having discussions with our 5th grade teachers 
and our 6th grade teachers, and our 8th grade teachers, and our 
9th grade teachers--having the same discussion about the blame 
game--it goes downhill from junior college, to high school, to 
middle school, and elementary school, and then we want to focus 
on parents, below that.
    Those discussions have started happening where the 9th 
grade teachers visit with the 8th grade teachers, saying, 
``This is what we need at our level, so that we can move them 
to a level so that they're ready for college.'' It flows back, 
actually, from the top down to the bottom.
    Dr. Breschwich, the President of Northwest College and I, 
the last time we met, are having these discussions about when 
and how we can get our faculty members together. Outside of 
that, though, with our recent concurrent enrollment agreement 
that we have, our faculties are talking together, on their own, 
about specifically mathematics and English classes. Very 
important for us.
    Senator Enzi. I appreciate that. I do know that blame game, 
as we try to focus in on where the real problem is, it's always 
in somebody else's yard, one way, up or down.
    Dr. Velle, you mentioned that these career schools, or 
career academies are 40 years old, I probably heard about them 
about 3 years ago.
    Ms. Velle. I know. At least I've been able to go to 
conferences and heard about them about that same time.
    Senator Enzi. Yes.
    Ms. Velle. A little bit before that.
    Senator Enzi. I almost got tears in my eyes when I think 
back, one of the people that had a career academy we're talking 
about, they had one that was a building trade. Everybody in any 
academy learns the same thing, they just learn it from the 
focus of what they'd like to do when they get a career.
    Ms. Velle. Right, correct.
    Senator Enzi. This principal was so pleased because so many 
of the kids went to this building school, building academy, to 
be a carpenter. Before long the students figured out that they 
really had a lot of talent, and they became architects.
    Ms. Velle. Right.
    Senator Enzi. And I think that's what we want--we want them 
to learn everything, and realize what their potential is.
    Can you tell us a little bit more about what students in 
the Energy Academy learn?
    Ms. Velle. What we've learned by having the Energy Academy?
    Senator Enzi. Yes.
    Ms. Velle. Yes. I can.
    In any career academy, you need to have, of course, career 
technical education teachers who are sometimes not even known 
to the academic decorum as teachers, but you need to have those 
teachers working together. We try to get some of the CTE 
teachers, and the core academic teachers to work in like a 
cohort but a little bit different than the professional 
learning community in that it doesn't take all of the sciences 
teachers together and all of the English teachers together, and 
so forth. We have an English teacher, a math teacher, a social 
studies teacher, and a science teacher, along with the CTE 
teachers.
    Well, when we started the Energy Academy, we knew that this 
community really supported the energy careers. What we didn't 
do, is we don't have a Career Technical Education course called 
``Energy,'' so we didn't really have an anchor for it.
    We had all of these students who loved the academy--they 
really liked the academy concept, because they liked those 
relationships. What wasn't happening was, when they took their 
career interest inventories, they all had careers all over the 
place. They wanted to be cosmetologists, and doctors, and oil 
space engineers, and everything in the world that didn't have 
anything to do with--they actually didn't want anything to do 
with energy, because their parents did that. I don't mean that 
in a bad way, I just mean, a lot of the students did say things 
like that. Which is, ``My parents work in the mine, and I don't 
want to do that, I want to be a doctor,'' or whatever.
    Then when the Department of Education had the demonstration 
site grants, and we were able to apply for one of those, and 
that was--thank goodness that was just a wonderful way for us 
to get started into our next--what we thought was our second-
biggest industry, here, which we thought was hospitality and 
tourism. Then we were able to hook it to marketing and culinary 
arts. We have a partnership, of course, with the college, so we 
have our culinary arts over here, we have culinary arts at the 
high school, so now we've got English, social studies, science, 
and math teachers working on projects with the culinary arts 
teachers, and the marketing teachers.
    We've learned to benefit from something that the kids 
liked, so that they feel like they're really a part of 
something. We're kind of morphing, getting the Energy Academy 
into the Transportation and technology academies. Because we 
think we'll get a lot of those same students, but we know that 
we have a lot of students that want to take the automotive and 
diesel classes. They'll take their capstone class here, at the 
community college, so they'll take their diesel classes over 
here.
    Senator Enzi. OK.
    Thanks. Mr. Jensen, you mentioned professional learning 
communities. Can you tell me a little bit more about that? I'm 
interested from all of you in knowing what role community 
partners play in your reform efforts, and that sounds like one 
of them.
    Mr. Jensen. Well, I guess really, the essence is that the 
professional learning community is understanding that it takes 
everybody engaged in the same work, on the same page, and 
working toward the same goal to make something happen. We use 
professionals in the communities in the context of teachers. 
Certainly, as you get good at what you do, you should be able 
to branch out there and pull in resources from a community--
resources and such to be part of that. In a perfect world, I 
think that's where we'd be. I think that's easier said than 
done. Certainly, the opportunity to sit as a group of 
professionals--and I think the key here, is that if you think 
of the students as ``my'' student--whether you see that student 
ever or not--if I still approach that student as ``my'' 
student, not ``your'' student, but ``my'' student or ``our'' 
student, and I'm just as responsible to make sure that the 
learning occurs as you are and as she is, I think that's when 
you really find that momentum that propels that student to 
areas of achievement which they haven't been able to attain 
before, because they're getting the focus of not one, but many.
    Senator Enzi. So, you're looking at the school as a 
community.
    Mr. Jensen. Most definitely. Because, like I said, high 
school is a--we're a community of neighbors that don't talk 
much to one another, or have been. These gentlemen talked about 
articulation--having these conversations between high school 
and middle school, middle school and elementary, high school 
and college, and those are conversations that have to happen, 
so that we know what they expect, and then we can do what we 
need to do to get them there, and that vertical line is so 
important, it's got to happen more.
    Senator Enzi. One of the things I was looking at in 
preparation for this was the drop-out rate for Wyoming. I've 
seen some drop-out rates from other States, and we're not doing 
as well as we could, but we're sure doing a lot better than 
some of the other States.
    [Laughter.]
    That's one of those data points that's handy.
    I did notice, Dr. Velle, you mentioned that smaller schools 
have more success--you said it much more eloquently than that, 
but in looking at this, I noticed that there were other high 
schools that have 100 percent graduation rate. Then I looked at 
the size of the school, and I think 27 students was the biggest 
one. There obviously is a correlation with that.
    Ms. Velle. May I say something?
    Senator Enzi. Sure.
    Ms. Velle. We are not to the point, yet, that we have any 
students that are graduating from a career academy. One of the 
things that we really want to take notice of is whether our 
students who are in academies, and career academies, graduate 
at a higher rate than those students who aren't in academies. 
Because, that way we can really focus on the fact that 
academies are succeeding. We don't have that data yet. It would 
be wonderful to have, but we don't have it yet. Our students 
who were in the Energy Academy--we have our first group of 
seniors, so we don't know.
    We do know that of the students that we've had in 
academies, not one of them has dropped out of school.
    Senator Enzi. Wow.
    Ms. Velle. Not one.
    Senator Enzi. I'll be anxious to see those statistics as 
they come a little bit further.
    Would any of you like to comment on what you see as key 
elements of any high school reform effort? For example, do you 
believe that parent buy-in is important to the success, and how 
can we make whatever reform thing you think of work?
    If you want to jump on the parental thing, you can tell me 
how to do that. We can't pass a law.
    [Laughter.]
    Anyone want to comment? Dr. Velle?
    Ms. Velle. Sometimes I think that the people that we have 
on our advisory boards are also parents. Very often they're 
parents of grown--well, for instance, Perkins requires that you 
have some parents on your advisory boards.
    I think that the more that you can involve the students 
going into the community and the community coming into your 
school--which includes parents that just makes everybody more 
aware of what's going on. For instance, for each of the career 
academies, we have an advisory board. Sometimes, in the 
advisory board, people come in and talk to the students--they 
pay a lot more attention to that than they do to the teachers. 
So, whether the advisory people come in and say, ``You know, in 
order for you to get a job at our place, you better not have 
anything bad on your driving record.'' Or, whatever it happens 
to be. Then the students really pay attention to that. Whereas, 
in the auto tech class, if you tell them that, they're sort of 
like, ``Oh yes, you would tell us that.''
    Senator Enzi. So outside speakers help, then?
    Ms. Velle. Oh yes. Parents are great to do that.
    Senator Enzi. Other ideas?
    Mr. Abernethy. Yes, I think one of the comments I'd make 
relative to high school reform has to do with the role of the 
teachers and the community in the assessments. I mentioned, 
very briefly, the common core State standards, and an 
assessment consortium that I think Wyoming's very close to 
pursuing membership in. Thirty-one States, initially signed up. 
This would bring together teachers and folks from the 
community, teachers at each level, which I think, as I said 
already several times is a key part, you need to have the 
vertical articulation as well as horizontal.
    As we build assessments, again, like whatever kinds of 
student measures/outcomes we're looking at, they need to be 
developed by people that truly are understanding and working in 
the trenches, that know what the challenges are, and know 
better how to assess the information in ways that makes it 
useful for them. I'm afraid sometimes what's happened, at least 
it seems to me is that many of our assessments are developed 
with the main outcome being something punitive if you didn't 
achieve a level, instead of that--if you don't achieve a level, 
No. 1, what should you being doing about it, as a school, or as 
a classroom, or as a teacher, but what also, then, can we do 
with that assessment information that would help the teacher 
get better, or choose to get better? There needs to be some 
incentives for the teachers in this assessment, as well.
    That's one of the things that really struck me about this 
balanced assessment consortium that I hope we do get involved 
with for the common core State standards. That is one of the 
elements that struck me as a good idea, a new idea that we 
really should engage in. Wyoming, along with, probably 
ultimately, be 35 or so States, I don't know, 31 right now--
that would help--that would, together, develop assessments. I 
think Dr. McBride touched on this in comments he's provided you 
before, is one of the things that would be beneficial to 
education across the Nation. Saving resources is a common 
assessment that has local flavor that could be accommodating to 
the local needs and interests, but also would be one that we 
wouldn't have to invest so much resource in at the State level, 
so that we could spend more time in the classroom or 
collaborating, building relationships, which I believe is 
really important.
    I'm not sure that was very articulate, but conceptually, I 
think that's really important and somewhat missing element 
right now.
    Senator Enzi. Mr. Mitchell.
    Mr. Mitchell. I actually was handed the consortium 
information at a legislative meeting in Lander on Wednesday, so 
I read that information on the way over here today, and found 
some of the components very interesting.
    You were asking about data points, what would the schools 
need as far as data points. We need an assessment system that 
does give us some type of school which shows where a student 
is, but most importantly, that assessment needs to have 
information about the progress of a particular student so that 
a teacher--not necessarily the teacher has to get better, but 
they need to have information about that student so they can 
refocus their efforts on the skills and knowledge that these 
students don't have. So, this assessment system that this 
consortium is looking at, we agree with that, for language 
arts, mathematics, writing.
    On the flip side of that, we believe that all other 
curriculum areas are up to the local Board of Trustees. The 
Federal Government should stay out of those areas. If they 
focus on a national, rigorous curriculum in reading, writing 
and mathematics. Help us with an assessment that we've never 
had before, that we can compare apples to apples. We can do the 
rest. Not without Federal support, but not the punitive manner 
in which the support has come in the past.
    This assessment is critical, and I do hope--unfortunately, 
I didn't read a lot about teachers being involved at this 
point, it's all about higher education. I hope that, at least 
in Wyoming, that they will bring classroom teachers into that 
assessment piece, so that we get the information that we need 
about particular students' progress.
    Thank you.
    Senator Enzi. Thanks.
    Anyone else?
    Ms. Velle. I just would add to that that, for instance, 
with the Perkins funding, we are centering on achievement in 
the skills area. Technical and skill assessment is a really 
important part of that.
    In the past, the only assessment that we've had in Perkins 
has been in math, and science, and so forth, and language arts. 
Now, the teachers are actually being asked to write the 
assessments. With the press associates in Jackson, they are 
writing their writing assessments, so that students all over 
the State will be asked to know the same kind of information. I 
think that's a really important point, there. I mean, that is 
for the Federal interests, we have the impetus behind that. The 
State is really stepping up to the plate, I think, in that 
area.
    Senator Enzi. OK. Other comments on that?
    Dr. Rose.
    Mr. Rose. I know that you're getting ready to wrap up, but 
I didn't want to let the time pass before I had an opportunity 
to, at least, express an opinion that's fairly widely held in 
this State, and that is to the point of how fortunate we feel 
in having you as our Senator in a position that you are in, 
currently, in terms of two very important watershed pieces of 
legislation, coming together almost simultaneously in the form 
of a Workforce Investment Act, and the renewal of the 
Elementary and Secondary Education Act.
    I spoke, just briefly, in my remarks about how important I 
think we recognize in the education community, now, it is for 
us to dissolve the boundaries between pure technical and 
academic pursuits. We realize that, all through the course of 
education that these things can be compartmentalized and 
successfully, really successfully, delivered.
    I would hope that in the course of the formulation of these 
two very important laws that there's recognition that there 
really can be more cooperation between the Department of Labor 
and the Department of Education, and though I think 
collaboration can achieve some really important goals--and, 
once again I--in my experience, in knowing what I know, the 
little piece that I know about how you operate, I think we're 
extraordinarily blessed to have you as our advocate in 
Washington, and I really do want to thank you.
    Senator Enzi. Thanks. I appreciate the comments.
    [Applause.]
    Of course, the way that I most often get information is 
when Diana and I come back to the State pretty much every 
weekend and go around and talk to real people, not the ones 
inside the Beltway.
    [Laughter.]
    I also have some tremendous staff that are doing excellent 
work. I noticed that Beth was smiling when you were saying that 
Dr. Rose, knowing that that's what we were trying to press them 
to do on both of those. We're trying to get rid of some of the 
silos in the Workforce Investment Act, because we wind up with 
every State having some money that they can't spend, because 
they don't have anybody that qualifies for that, but we have 
other areas that they desperately need money in, and they spend 
it all. So, we want to get a little more flexibility there.
    We will eventually get all of those things done.
    Mr. Mitchell, when you were speaking before, you mentioned 
academies. How do your academies differ from Dr. Velle's 
academies?
    Mr. Mitchell. Our academies are basically grade-level 
academies where we have assigned a science teacher to the 9th 
grade, a social studies teacher, language arts teacher, and 
history teacher and before they are randomly scheduled for 
grades 9 through 12, so we're trying to pull specific teachers 
that only teach 9th grade, and another group of teachers that 
teach 10th grade, so that they are working only with those 120, 
125 student, and then we give them common planning time so that 
they can spend time together, looking at data.
    It's not necessarily aimed at careers. Ours is more of a 
community, the professional learning community approach, not 
necessarily--there can be some of our career tech education 
teachers in that group, but they can't be in all four grade 
levels. In the 9th grade, the rolling teacher might be part of 
that group, in 10th grade, there might be a technology 
instructor as part of that group, depending on when their 
planning time is.
    Senator Enzi. OK.
    Time to go back to assessments a little bit more, because 
we were talking about any kind of common standards. The idea 
that's evolved out of common standards has been to have some 
commonly developed tested questions that a State could pick 
from to do their assessment. I think that's a very expensive 
part of doing accountability--the testing. This has already 
been tried a little bit for English language learners and 
students with disabilities.
    Any suggestions you have on the testing, I'd be interested 
in. You can either provide them now, or in writing, later.
    When we're talking about assessments, we're also told that 
the schools want to have flexibility. I see a lot of head-
shaking, here. What does flexibility mean to you? Is it how the 
Federal dollars are spent, that kind of flexibility, or how you 
meet the Federal requirements, or freedom from Federal 
reporting requirements, or any other--what does flexibility 
mean to you?
    Mr. Mitchell. I'll start, Senator Enzi.
    Senator Enzi. Thank you.
    Mr. Mitchell. I think it's a combination of all of the 
above. Certainly we are looking at flexibility, as far as the 
different grant funds that we get that allows us the 
flexibility to use those resources as needed. We understand 
that there is always going to be accountability tied to those 
funds, just as there are the State-level funds. The focus can't 
be in every area. The flexibility for us, we initially are on-
board with the common core standards, knowing that there's 
going to be an assessment of all of that. That's just a natural 
progression. It's happening a lot faster than I realized, 
because I didn't even know that there was a grant that the 
consortium was working on. But, not opposed to that, I just 
hope that we get to participate in that.
    The flexibility that we're looking for, in particular, not 
all schools are failing, in fact, we think that there are very 
few that are failing. Some of the flexibility that we would 
encourage in the reauthorization is that, if your school 
district has no failing schools and meets AYP every year, that 
we get the flexibility of using Federal dollars the way we see 
fit at the local level.
    Ms. Velle. One of the things about flexibility that I see 
is that, for instance, in a career academy, the way you teach 
is way different than--it's not what you're teaching, it's the 
way you're teaching. I think that's where we'd like to see more 
flexibility where we know that we have to meet the State 
standards, we know that we don't want any students not to be 
ready to receive the Hathaway scholarship at whichever level 
they are aiming toward.
    With the career academy, we need to have the flexibility 
that we can teach, say, out in the community. That we take the 
students out and they're doing something that the English 
teacher can, for instance--can I do a ``for instance''?
    Senator Enzi. Absolutely.
    Ms. Velle. The Christmas tree that's going to be at the 
White House this year is from Wyoming. There are some 
organizations in Wyoming that have been asked to do ornaments 
for this Christmas tree. The ornaments have to be something 
that are, like, 12 inches, like this. They have to be something 
that is Wyoming-like. I talked to some of the CTE teachers, and 
we were having a project-based learning workshop. And I said, 
``Here's a project that we have to get done by October, can you 
do this?'' So that, they're going to make these ornaments, and 
they have to have 5,000 ornaments for this tree. The Family 
Consumer Science teachers are going to paint, and maybe the art 
teachers, as well. For their students to do the painting--the 
Tech Ed teachers are going to do the CNC routing of the 
ornaments and cut them out, the math teachers are going to have 
their students figure out how much material they need, the 
English teachers are going to work with the students to write 
up about the project and put it in the newspaper, and all of 
that kind of stuff, so we're going to involve a whole bunch of 
students, and a whole bunch of teachers.
    They're not going to be doing what it looks like what 
regular school is like. They're going to be doing all kinds of 
other stuff. The students are going to get the idea, ``OK, I 
have to be able to write, at this level. I have to be able to 
figure out these things with algebraic equations. I've got to 
know how to do all of these different standards, but I'm going 
to do them in a project that makes sense to me.''
    That's where I feel like we have to have a lot of 
flexibility.
    Senator Enzi. Good. I'm glad to hear about the 
participation on the tree, too. Senator Barrasso did a 
marvelous job of getting Wyoming in line on that, and getting a 
tree. Five-thousand ornaments from five-hundred thousand 
people--and that's counting everybody. I bet there's a lot of 
participation, and I'll bet there are some awards that go with 
that, too. So, I'm glad you're doing that project.
    Anything else on flexibility?
    Mr. Rose. Senator, just one additional point, I think the 
National Governors and the Chief State School Officers, as they 
develop these core standards, one of the things that came out 
of that discussion is, we can really agree on some standards 
that are not overly complicated and complex. I think 
flexibility can really be achieved with the simplest form of 
standards that we can develop and agree on, rather than trying 
to dictate the very miniscule and very detailed ways in which 
proficiency in those standards is accomplished.
    I think flexibility in part can be developed through--as 
Kevin said earlier--some different approaches, but some common 
outcomes. We understand that this isn't necessarily a 
prescriptive, and very, very directed sort of approach, but 
that we really can agree on some fairly simple standards that 
everyone should be able to achieve, irrespective of whether 
you're talking about an urban school district with the learning 
challenges that students face there, or here where we have 
geography as a constant--I think flexibility really, in part, 
can be done more effectively through simplicity, and through 
just simple agreement on some very basic principles.
    Senator Enzi. There seems to be some interest and agreement 
that, since the Governors are putting together the core 
standards, as opposed to the Federal Government, that it might 
be more acceptable.
    [Laughter.]
    I was pleased in talking with the Secretary of Education 
where he made some comments about how Wyoming's standards had 
not been downgraded over the period of time in order to make 
the schools look better over the period of time, and that was 
quite a compliment to Wyoming.
    Does anyone want to make any comments?
    Mr. Abernethy. Senator.
    Senator Enzi. Go ahead.
    Mr. Abernethy. Senator Enzi, I would like to say, in a 
different way, somewhat the same things that both Dr. Velle and 
Dr. Rose have said. Thinking about flexibility, as I ponder 
these issues in education, really flexibility for me is 
acknowledging and devising educational practices that 
recognizes that students learn a lot differently. Each of us 
learn in a different way. Dr. Velle's gave an example where 
you're learning content, which ties in with what Dr. Rose said, 
I think, there's some level of content in, let's say, 
mathematics as a simple example. Some level of content that you 
need to be able to do regardless of what your career or your 
future holds.
    How I learn how to do that content may be quite different 
than how Dr. Velle learns how to do that content, but we still 
need to be able to do the same activities at the end. 
Flexibility is acknowledging that we need to have an 
educational system that acknowledges different learning styles, 
different abilities in the way--and that's what intrigues me so 
much about the career academy concept, and building that.
    I speak highly--and I will continue to do so--of the 
importance of maintaining the Hathaway Success curriculum. I do 
that with some honest trepidation, in a sense, in that--
especially in rural schools--I'm not real sure how we achieve 
those outcomes from those courses in ways that acknowledge 
different learning styles. How do you make advanced algebra 
relevant to somebody--for me, it's a conceptual--I'm a 
conceptual learner, I love to think about philosophies, like 
I'm doing now, theorizing. A lot of our students need to have 
the hands on--they need to be figuring out advanced mathematics 
in a sense of building something, of using their hands, or of 
putting pieces together in a puzzle. That's flexibility.
    I'm looking for help every day in how we do that, how do we 
make it relevant to different students, different learning 
styles, and still meet the outcomes that we need to have for 
our society?
    Senator Enzi. Mr. Mitchell.
    Mr. Mitchell. I can tell you what's happening in rural 
schools in Wyoming, at least the ones that I've talked to, high 
schools. We're not opposed to the success curriculum. We 
support it, when you focus on certain areas, and students are 
driven into those areas, other areas suffer. Right now, at 
least in Powell High School, career and technical education is 
suffering.
    We reduced a teacher this year, there's a chance we're 
going to reduce another teacher in the future, through 
attrition, because the students aren't taking those classes, 
because their parents are demanding that they take the classes 
that fit into the success curriculum.
    We're struggling with that same dilemma of how do we still 
offer that high, rigorous curriculum in everything that we do. 
I've listened to the Superintendent, I've heard that they were 
going to release five career technical education teachers this 
year, so wondering how she was going to go about that. I had a 
conversation--and they didn't release any, because the 
community and the Board said, ``We're not going to.'' Then you 
have teachers that have two or three students enrolled in their 
class, which is not good for resources.
    It is a continuous struggle of hitting that high rigor for 
every student in the high school, and not focusing on two or 
three areas.
    Ms. Velle. That's a struggle for us, as well. When we have 
the success curriculum that demands that you have foreign 
language, for instance. If they had a little bit more option, 
if they could have an option of fine arts, an option of career 
technical education or language, to me, that would make more 
sense. I know that that's more of a State kind of thing than it 
is a Federal.
    It really does affect our programs, very adversely, because 
there are a lot of students whose parents say, ``No, you're not 
going to take construction,'' even though they would learn a 
higher level math and geometry in building the house. You can't 
take a construction class because you've got to take a fourth 
year of math, or whatever. Or you've got to take this--another 
year of Spanish, or whatever it happens to be.
    Mr. Jensen. And in terms of flexibility, this is a little 
bit different than what we've been talking about, but I think 
it applies--I think the flexibility we need--the realization 
that students do learn differently, vastly differently, and 
that students come to us at all kinds of different levels, and 
to expect all students to reach the end point in the specific 4 
years, it doesn't matter where you are here, by the time you 
get here, everybody's got to be the same--that's never going to 
happen. I mean, it just won't.
    Having the flexibility and knowing what's important as we 
take the student, wherever they are, and get them where they 
need to be, and not be constrained by--it's got to happen in 
this amount of time or you suffer, because what's important 
here is that the student gets that, and that's what we're 
trying to do.
    The flexibility in ways that you determine graduation 
rates, focusing more on mastering material and competency as 
opposed to time.
    Senator Enzi. I know that Mr. Mitchell mentioned 
alternative schools, and do you have an alternative school, as 
well?
    Mr. Jensen. We have a pseudo-alternative school. We call it 
Transition School. It's a school within our school.
    Senator Enzi. It's for what students?
    Mr. Jensen. It's for at-risk students who struggle in 
regular classrooms, regular 24 students. When they've shown 
that they've struggled in certain aspects, certain strategies 
haven't worked, we were able to try some things differently. 
It's a small group. We've allocated some teachers and resources 
to teach them in different ways. We tie in online learning, we 
teach them a lot of skills, discovery skills, and personal 
skills. In some ways, they just don't interact well with others 
in a big group setting, but maybe in a small group setting, 
they're able to be more productive, and we can help them out.
    I don't know if you're familiar, much, with Rudy Fame, and 
her work on students in poverty, but they use some of those 
same concepts there, as well, because a lot of the students are 
the ones we serve in the transition school.
    Senator Enzi. How are the kids selected for that?
    Mr. Jensen. We've been developing a process, basically it 
comes through teacher and counselor referral. We have certain 
interventions that we try to use in the regular ed classroom 
before we look at transition school. Oftentimes we need to see 
what the student is just flat out feeling and if they are 
unable to be successful in the regular classroom before we go 
that route.
    Sometimes there's some signs or some things that are going 
on with a student's life that help us know, by referral, we 
take those and we take them to our team that looks at those 
referrals and then we make the changes.
    Senator Enzi. How does the alternative school work?
    Mr. Mitchell. There are some referrals, but they have to 
apply and go through an enrollment process where they sit down 
with a counselor and we have one certified teacher at that high 
school--they have to set goals for themselves, the timelines 
that they're going to meet their goals, and not everybody gets 
to go to the alternative school. They have to go through a 
rigorous enrollment.
    It's not that you don't make it at Powell High School, 
you've got to go there. Definitely students who choose to be 
behavior problems don't necessarily get to go to that school, 
either. So it's not a dumping grounds.
    Senator Enzi. How do the other students feel about having 
that school?
    Mr. Mitchell. I think it was difficult at first. I wasn't 
in the community, but I wasn't very far away, about 15 miles, 
so I kind of knew what was going on over there. We have several 
Powell High School students taking classes over there every 
day. They'll leave the high school and go to the alternative 
school to take a credit class through a semester. The 
transition and attrition back and forth between the students--
the true alternative high school students, there's probably 
about 20 is all there are, that's the only school that they go 
to. We graduated 13 students out of that high school this year 
though, had their own separate graduation ceremony.
    Mr. Jensen. Senator Enzi, if I could just talk a little bit 
about that, as well. At the end of the year we have a little 
celebration for our transition students who are graduating. We 
had 14 that graduated this year. I started at Cody High School 
4 years ago, so these were the kids that I've seen for the last 
4 years. To a kid, as freshman, if I was a betting man, I would 
have said, ``Going to drop out, going to drop out, going to 
drop out.'' It was outstanding to sit in that room with these 
kids and to--and these are kids who are graduating and moving 
on, some are going to community colleges, some are entering the 
workforce, some are even going to 4-year universities, but it 
was a neat experience just to see that and to realize on my 
end, you never give up on kids, because you never know, you 
never know. That was neat.
    Senator Enzi. Of course, one of the things I want to dwell 
on a little bit is the difference between rural and urban. Now, 
I do know that when I'm in Cheyenne, they think they're urban.
    [Laughter.]
    I know when I'm in Chicago, they think that Cheyenne is 
rural.
    [Laughter.]
    I know that Secretary Duncan got a much different 
impression when he came out here. Incidentally, he came here 
after being in Alaska. That's pretty rural, too, although they 
might exceed us in population. One of the really nice things, 
when he was up there, he never saw a single wild animal, but he 
did when he was in Wyoming.
    [Laughter.]
    Mostly antelope, of course.
    What sorts of things with ESEA, called No Child Left 
Behind, are difficult because of our rural nature?
    Ms. Velle. I would say one of the things that is difficult 
is the fact that a very small rural school just does not have 
the resources, usually personnel, to teach all the courses. One 
teacher very often has to teach many things. They might only 
have one English teacher, and so they don't have the luxury of 
teaching drama. They may have only a tech ed teacher, and that 
tech ed teacher has to teach probably machining, welding, and 
construction, or whatever they happen--they can't do that whole 
sequence of courses, which everybody now is talking about a 
program of study, that every student should have a program of 
study. I think it's very difficult for smaller schools to 
really offer those programs of study that have the sequence 
that really get students ready to either go on to college or to 
go to a career.
    Mr. Mitchell. Senator Enzi, I have a few items. Some of the 
things that peer schools have to offer are supplemental 
services. In rural areas there are no supplemental services. 
There's just no other outside agency that we can send our 
students to, it's us. The other is, that an entire subgroup can 
transfer to another school. We have one middle school, so 
there's no school for them to go to other than Powell Middle 
School.
    Then the other is firing staff. In small communities the 
school is the largest employer, and to fire half the people in 
a school system in Wyoming is not going to be taken very 
lightly, I don't think. There's got to be other ways that are 
nonpunitive, and I would hope that, in the reauthorization, the 
Department of Education looks at more of a support model for 
schools that are failing versus penalizing them.
    In support, I mean by offering professional development for 
principals, teachers, curriculum directors, in areas of school 
improvement, bring in models of schools that have shown success 
versus penalizing. And the other is that it needs to be locally 
driven. I'm not sure about the cost, but it doesn't do any good 
for them to tell me to click on their Web site from Washington, 
DC. I don't get service from a Web site.
    Relationships are important and we need to have a contact, 
not only from the State Department level, but from the Federal 
level. When a school is in trouble, they need people to help. 
They don't need a book to read and they don't need a Web site 
to go to.
    Senator Enzi. OK. At this point, do any of you have 
questions for each other?
    Mr. Abernethy. Senator Enzi.
    Senator Enzi. Yes.
    Mr. Abernethy. I have a question for Dr. Velle in the 
career academies. The students in the career academies, sound 
like what we call learning communities at the university. We 
have learning communities for our first-year students. The idea 
being to make a smaller community out of a population of 1,500 
first-year students or thereabouts. Do the students in these 
career academies or learning communities, do they take the same 
kinds of high school classes, that is like the writing, the 
mathematics, the language arts, are they in the same classes 
for the core skills as all students?
    Ms. Velle. They take the same courses. They have to fulfill 
all the requirements for graduation, they have to meet all the 
State standards, they have to meet all of the criteria for the 
Hathaway Scholarship. They just do it with a, hopefully, a 
teacher that stays with them for a couple of years. These 
teachers meet together, so there'll be a math teacher, science, 
English, social studies, and CTE who meet together and they 
talk about how they're going to do these projects.
    Now, they don't do everything project-based. They just do 
some things project-based. They collaborate, so it is very much 
like what you're talking about, the community. It's just a new 
way of teaching, like was mentioned, that there's a story about 
an engineer and a doctor and a teacher who died 100 years ago. 
They come back to see what's going on. The engineer and the 
doctor look at the hospitals and look at the bridges and look 
at the buildings, and say, ``Oh my, nothing is the same.'' And 
the teacher looks at the school and says, ``What's changed?''
    It's unfortunate that we still have many teachers who go--
and some do well that way. I don't want to say that it doesn't 
ever work, because it does. Teachers mostly go into a classroom 
and close their door and teach in isolation. What we want to do 
is make it more like the real world, because when you go out to 
have a job, you're going to need English and you're going to 
need math and you don't turn off the math skills and work on 
the English skills.
    So yes, we don't want to take anything away from those 
students, we want to give them something more.
    Senator Enzi. Thank you.
    Is there any question that I should have asked you that I 
haven't? We probably have about 10 minutes, yet.
    If not, we don't have to use all of the time, but I really 
appreciate all this information and I will have some more 
questions that I'll get to you in writing and some of the other 
Senators may have once they've looked at the testimony that we 
may need cleared up.
    I think that there's a great future for education and I'm 
really impressed with the young people that I see in Washington 
that come from Wyoming. When we see these groups from all over 
the United States, and they're asking questions, I can pick the 
Wyoming kids out. They're just a little bit more independent 
and polite and thoughtful. You're doing a good job, but we can 
do better.
    I remember when I was in junior high, the Russians shot up 
Sputnik, and we found out we were behind. The students were 
embarrassed, the parents were embarrassed, the teachers were 
embarrassed, the country was embarrassed, and we kind of had a 
revolution in education.
    I don't want us to have to have that kind of a problem to 
get kids inspired in education. After Sputnik, several of us 
started a Boy Scout explorer post and we built rockets. I've 
talked to Homer Hickam who did the Rocket Boys, October Skies 
is the movie, and we judged some rocket competitions out there, 
and I like to tell them we did an electronic ignition on the 
second shot, not the eighth.
    [Laughter.]
    Out of the 11 of us that were in that, 8 became engineers. 
It did inspire people to get into science and technology, 
engineering and math. I was one of the ones that didn't. I 
loved the math and the engineering and everything, and at one 
time was going to be a NASA specialist, but that led down a 
different path. We have to take into consideration those people 
that--I call it, when God winks--wind up doing something 
different than they thought they would. I appreciate all that 
you do to make sure that they're prepared for whatever 
direction they have to go.
    I think this has been a great conversation. I want to thank 
each of you for taking the time and effort to come here and, 
again, to prepare in advance.
    [Laughter.]
    I'll be telling my colleagues about that.
    I want to thank the audience for joining us today and 
listening, and I hope that you have some ideas from this that 
you will also share with me.
    If you have any comments on the reauthorization of the 
Elementary and Secondary Education Act, which at the current 
time is called No Child Left Behind, please let me know. We 
know it needs to be fixed, and we plan on doing that in a very 
bipartisan way. We've been having discussions, the people from 
the House and the Senate are getting together, both Republicans 
and Democrats--education is pretty bipartisan--to discuss this 
issue. We've been pleased with the discussion so far.
    At this point, I'll mention that the record will stay open 
for 10 days, and that's for members to submit additional 
questions to the witnesses and for people to send in comments.
    The committee is adjourned.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
